United States v. Portillo, 969 F.3d 144 (2020)

969 F.3d 144
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff - Appellee
v.
John Xavier PORTILLO, also known
as John Portillo; Jeffrey Fay Pike, also
known as Jeffrey Pike, also known as
Jeffrey F. Pike, Defendants - Appellants
No. 18-50793
|
FILED August 5, 2020

[7] prosecution witness did not waive psychotherapist-patient
privilege; and
[8] defense witness's prior convictions were admissible.
Affirmed.
Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection; Post-Trial Hearing Motion.
West Headnotes (85)
[1]

Synopsis
Background: Two defendants were convicted in the United
States District Court for the Western District of Texas,
David A. Ezra, Senior District Judge, of multiple counts
related to Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy arising from their positions as highranking officials in motorcycle club, and one defendant's
motions for new trial and for judgment of acquittal were
denied, 2018 WL 9786081. Defendants appealed.

Defendant's initial appearance before magistrate
judge on day of his arrest did not constitute
critical stage of the proceedings, and thus
defendant had no right to counsel at that
appearance; during the hearing, the magistrate
briefly recited the facts of the indictment,
the maximum penalties defendant faced, and
the government's intent to detain him without
bond pending trial, magistrate judge repeatedly
warned defendant not to talk about the facts of
his case and confirmed that defendant intended to
hire his own attorney, defendant was not forced
to make any potentially incriminating statements
that could jeopardize his defense, and defendant
was not asked to make strategic decisions about
his case. U.S. Const. Amend. 6.

Holdings: The Court of Appeals, Higginson, Circuit Judge,
held that:
[1] defendant had no right to counsel at initial appearance
before magistrate judge;
[2] empaneling of anonymous jury and other security
measures were justified under the circumstances;

Criminal Law
Preliminary examination;
arraignment; appearance; bail

[2]

Criminal Law

Counsel for accused

Defendant waived all but plain error review
over his claim that he was denied his Sixth
Amendment right to counsel when he was not
represented by counsel during initial appearance
before a magistrate judge on the day of his arrest,
where neither defendant nor his counsel made
that argument in the district court. U.S. Const.
Amend. 6.

[3] evidence was sufficient to support one defendant's
conviction for aiding and abetting murder in support of
racketeering enterprise, in violation of Violent Crimes in Aid
of Racketeering Activity (VICAR) Act;
[4] FBI special agent was qualified to testify as expert on
motorcycle club;
[5] cooperating witnesses' confessions were not admissible as
prior consistent statements;
[6] district court did not plainly err in commenting regarding
well-known mafia movie;

[3]

Criminal Law

Counsel for accused

Criminal Law

Review De Novo

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Portillo, 969 F.3d 144 (2020)

Sixth Amendment right-to-counsel claims are
typically subject to de novo review; however, if a
defendant could have argued to the district court
that he was deprived of his Sixth Amendment
rights but failed to do so, the Court of Appeals
reviews the claim for plain error only. U.S.
Const. Amend. 6.

[4]

Criminal Law
General

Necessity of Objections in

[8]

Criminal Law
General

Necessity of Objections in

[9]

[10]

[7]

Criminal Law
proceedings

Adversary or judicial

A prosecution commences, and the Sixth
Amendment right to counsel attaches, with
the initiation of adversary judicial criminal
proceedings—whether by way of formal charge,
preliminary hearing, indictment, information, or
arraignment. U.S. Const. Amend. 6.

Criminal Law

Critical stages

Criminal Law

Critical stages

During a critical stage, at which a defendant has
a right to counsel under the Sixth Amendment,
the results of the confrontation might well settle
the accused's fate and reduce the trial to a mere
formality. U.S. Const. Amend. 6.

Right of Defendant to

Purpose of the Sixth Amendment guarantee of
counsel is to ensure that a defendant has the
assistance necessary to justify reliance on the
outcome of the proceeding. U.S. Const. Amend.
6.

Critical stages

A “critical stage,” at which a defendant has a
right to counsel under the Sixth Amendment, is
a trial-like confrontation at which counsel would
help the accused in coping with legal problems
or meeting his adversary. U.S. Const. Amend. 6.

[11]
Criminal Law
Counsel

Criminal Law

After attachment of Sixth Amendment rights
occurs, a defendant is entitled to the presence
of appointed counsel during any critical stage
of the postattachment proceedings. U.S. Const.
Amend. 6.

If a defendant asserting existence of a plain
error demonstrates a clear or obvious error that
affected his substantial rights, the appellate court
should exercise its discretion to correct the
forfeited error if the error seriously affects the
fairness, integrity, or public reputation of judicial
proceedings.

[6]

Stage of Proceedings as

Whether Sixth Amendment rights have attached
is a separate inquiry from whether counsel must
be present at a postattachment proceeding. U.S.
Const. Amend. 6.

To establish plain error, a defendant must show a
clear or obvious error that affected his substantial
rights.

[5]

Criminal Law
Affecting Right

[12]

Jury

Designation and identity of jurors

Empaneling of anonymous jury and security
measures, including off-site parking and
transportation to courthouse, were justified
in prosecution of two defendants, who were
allegedly high-ranking members in motorcycle
club, for multiple counts related to Racketeer
Influenced and Corrupt Organizations Act
(RICO) conspiracy; motorcycle club selfidentified as “outlaws” and had culture
that encouraged violence against outsiders,
defendants faced lengthy sentences if convicted,
there was risk of significant media attention,
district court gave prospective jurors neutral
explanation for anonymity procedures, and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Portillo, 969 F.3d 144 (2020)

defendants had access to sufficient amount of
information concerning prospective jurors.

[13]

Criminal Law

Selection and impaneling

A district court's decision to empanel an
anonymous jury is reviewed for an abuse of
discretion.

[14]

Jury

Jury

[19]

[20]

Criminal Law

Selection and impaneling

Jury

Designation and identity of jurors

Certain factors—such as evidence that the
defendant has in the past or intends in the future
to tamper with the jury—may be sufficient on
their own to warrant an anonymous jury.

[18]

Criminal Law

Racketeer Influenced and Corrupt
Organizations
Weight and sufficiency
Evidence was sufficient to support conviction
of defendant, who was president of motorcycle
club, for aiding and abetting murder of purported
member of rival motorcycle club in support of
a racketeering enterprise, in violation of the
Violent Crimes in Aid of Racketeering Activity
(VICAR) Act; evidence was presented that
defendant issued order to “take out” purported
members of rival motorcycle club, that defendant
had significant decision-making authority for
club in his role as president, and that defendant
expressed support for murder after it occurred,
including by personally approving creation of
underground chapter of the motorcycle club by

Designation and identity of jurors

In evaluating whether the district court abused
its discretion in empaneling an anonymous jury,
the Court of Appeals looks to the totality of the
circumstances.

[17]

Review De Novo

De novo review of whether the evidence was
sufficient to support a defendant's conviction is
highly deferential to the verdict.

Factors that may justify jury protection
by anonymity include: (1) the defendants’
involvement in organized crime; (2) the
defendants’ participation in a group with the
capacity to harm jurors; (3) the defendants’
past attempts to interfere with the judicial
process or witnesses; (4) the potential that, if
convicted, the defendants will suffer a lengthy
incarceration and substantial monetary penalties;
and, (5) extensive publicity that could enhance
the possibility that jurors’ names would become
public and expose them to intimidation and
harassment.

[16]

Criminal Law

Designation and identity of jurors

District court must base its decision to empanel
an anonymous jury on more than mere
allegations or inferences of potential risk.

[15]

When a defendant preserves his challenge to
the sufficiency of the evidence by moving for
acquittal, the Court of Appeals reviews his claim
de novo. Fed. R. Crim. P. 29.

participant in murder.
(1).

[21]

18 U.S.C.A. § 1959(a)

Racketeer Influenced and Corrupt
Organizations
Nexus between enterprise
and acts
To establish a violation of the Violent Crimes in
Aid of Racketeering Activity (VICAR) Act for
aiding and abetting murder, the government must
prove: (1) an enterprise engaged in racketeering;
(2) the activities affected interstate commerce;
(3) a murder; and (4) the murder was committed
for payment by the enterprise or for the
purpose of gaining entrance to or maintaining
or increasing position in an enterprise.
U.S.C.A. § 1959(a)(1, 2).

18

Review De Novo

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Portillo, 969 F.3d 144 (2020)

[22]

Criminal Law

to discuss their agreement to commit murder,
deal drugs, and engage in other related activities

Presence

Criminal Law
Aiding, abetting, or other
participation in offense
Proof that a defendant was merely associated
with a criminal, or that he was present at the
scene of a crime is not, without more, sufficient
to sustain a conviction for aiding and abetting a
criminal venture.

[23]

on behalf of the club.
5),

[26]

Criminal Law
Aiding, abetting, or other
participation in offense

Conspiracy
general

Racketeering conspiracies in

To establish conspiracy liability under the
Racketeer Influenced and Corrupt Organizations
Act (RICO), the government must prove (1)
that two or more people agreed to commit
a substantive RICO offense, and (2) that the
defendant knew of and agreed to the overall
objective of the RICO offense.
1962(d).

[25]

Conspiracy

18 U.S.C.A. §

Conspiracy

Multiple offenses

motorcycle club.

[27]

Weapons
abetting

18 U.S.C.A. § 1962(d).

Parties to crime; aiding and

Evidence was sufficient to support conviction
for aiding and abetting the discharge of a
firearm in furtherance of the murder of victim,
who was a purported member of a rival

Multiple offenses

Evidence was sufficient to demonstrate that
defendant and other members of motorcycle
club agreed to engage in pattern of racketeering
activity, so as to support conviction for
conspiracy under the Racketeer Influenced and
Corrupt Organizations Act (RICO), even if
defendant was not himself a party to meetings
by other members; evidence was presented that
motorcycle club engaged in murder, extortion,
and drug dealing to assure supremacy of the
club, that defendant gave order for murder of
purported member of one rival motorcycle club,
that defendant knew and supported club's violent
rivalry with another rival motorcycle club, and
that members of defendant's motorcycle club met

1962(d).

Evidence was sufficient to demonstrate that
defendant knew of and agreed with objectives of
Racketeer Influenced and Corrupt Organizations
(RICO) offense, so as to support conviction for
RICO conspiracy arising from murder, extortion,
and drug-dealing activities undertaken on behalf
of club; while some evidence was presented
that defendant wanted to clean up motorcycle
club's image, other evidence was presented that
defendant's role as president of club placed him
at top of organizational chart, that defendant
ordered murder of purported member of rival
motorcycle club, that defendant endorsed violent
war with other rival motorcycle club, and that
defendant ordered violence towards members
of rival club who were making trouble for his

A person is liable for aiding and abetting a crime
if, and only if, he (1) takes an affirmative step in
furtherance of that offense, (2) with the intent of
facilitating the offense's commission.

[24]

18 U.S.C.A. §§ 1961(1,

motorcycle club, under
Pinkerton theory
that use of firearm was reasonably foreseeable
and in furtherance of the conspiracy; evidence
was presented that defendant participated in
racketeering conspiracy, and that victim was
murdered as punishment for real or perceived
transgressions against motorcycle club or its
members, and it was reasonably foreseeable that
firearm would be used to murder victim under the
circumstances.

[28]

Conspiracy

18 U.S.C.A. § 924(j)(1).

Assault and battery

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Portillo, 969 F.3d 144 (2020)

Conspiracy
intent to kill

Homicide and assault with

[30]

Racketeer Influenced and Corrupt
Organizations
Weight and sufficiency

[29]

Conspiracy
Extortion, threats, stalking,
and harassment
Conspiracy

Robbery

Evidence was sufficient to demonstrate that
defendant, who was president of motorcycle
club, was aware of club's disagreements with
rival club and endorsed plans to address the
problem through violence, so as to support
convictions for conspiracy to commit murder
and assault with a dangerous weapon in aid of
racketeering, in violation of Violent Crimes in
Aid of Racketeering Activity (VICAR) Act, even
if there was no evidence that defendant agreed
to specific acts; evidence was presented that
defendant made all major decisions for club, that
defendant told co-defendant to “be careful” and
to “play ball” and “batter up” when discussing
plans for addressing problem with rival club, and
that club members engaged in series of assaults

Evidence was sufficient to support conviction for
conspiracy to interfere with interstate commerce
by extortion or robbery, in violation of the
Hobbs Act, arising from defendant's conduct,
as president of motorcycle club, relating to
plan for members to travel from Texas to New
Mexico to violently confiscate patches from
members who were challenging his authority,
even if patches belonged to club and not the
disobedient individual members; evidence was
presented that defendant authorized plan, that
members traveled from Texas to New Mexico,
where they “started beating everybody up” who
refused to say that defendant was their president,
and that Texas members forcefully confiscated
the patches from defiant New Mexico members

and murders against rival club members.
U.S.C.A. § 1959(a)(5, 6).

and burned the majority of the patches.
U.S.C.A. § 1951.

18

Racketeer Influenced and Corrupt
Organizations
Nexus between enterprise
and acts
Evidence was sufficient to support convictions
of defendant, who was president of motorcycle
club, for assault with a dangerous weapon in aid
of racketeering in violation of Violent Crimes
in Aid of Racketeering Activity (VICAR) Act,
arising from incidents in which members of
defendant's club hit member of rival motorcycle
club in head with hammer and hit members
of rival motorcycle club and their wives
with beer bottles, knives, and other weapons;
those instances of violence were reasonably
foreseeable and in furtherance of the conspiracy,
and the acts of violence were intended to
punish the members of the rival motorcycle
club for their perceived transgressions against
defendant's motorcycle club.
1959(a)(3).

[31]

18

Criminal Law
Reception and
Admissibility of Evidence
Where a defendant preserved his objection to
the admissibility of the evidence, the Court of
Appeals reviews the district court's rulings for an
abuse of discretion.

[32]

Criminal Law

Discretion of Lower Court

A district court abuses its discretion if it bases its
decision on an error of law or a clearly erroneous
assessment of the evidence.

[33]

Criminal Law

Evidence

In criminal cases, the Court of Appeals' review
of evidentiary rulings is necessarily heightened,
and the Court should ensure that the evidence is
strictly relevant to the particular offense charged.

18 U.S.C.A. §

[34]

Criminal Law
general

Objections to evidence in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Portillo, 969 F.3d 144 (2020)

Where the defendant did not object to the
admissibility of the evidence at trial, the Court of
Appeals reviews the claim for plain error only.

[35]

Criminal Law
Practices or modus
operandi of offenders
Criminal Law
and Skill

Knowledge, Experience,

FBI special agent was qualified to testify as
an expert on motorcycle club based on years
of on-the-ground investigative training, which
rendered his testimony reliable and sufficiently
supported to be admissible at trial, in prosecution
related to racketeering conspiracy arising from
defendants' positions as high-ranking officials in
motorcycle club; agent developed his knowledge
of motorcycle club over 12 years as FBI special
agent, including eight years working on task
force investigating gangs and at least five
years investigating motorcycle club in particular,
and agent's knowledge of motorcycle club was
based on interviews with current and former
members of motorcycle club, document review,
and collaboration with confidential informants.
Fed. R. Evid. 702.

[36]

[38]

Criminal Law
Practices or modus
operandi of offenders
FBI special agent's testimony regarding
historical crimes committed by motorcycle

Criminal Law

Sources of data

FBI special agent did not impermissibly reveal
hearsay during course of his expert testimony
regarding motorcycle club when he based his
opinion on otherwise inadmissible facts and data,
including statements made by motorcycle club
members in interviews and intercepted phone
calls, in prosecution related to racketeering
conspiracy arising from defendants' positions
as high-ranking officials in motorcycle club;
reliance on such hearsay evidence was consistent
with the ordinary practice of law enforcement
officers, who routinely and reasonably relied on
hearsay in reaching their conclusions, and special
agent used his expertise to synthesize various
source materials rather than simply regurgitating
information he learned from those sources. Fed.
R. Evid. 703.

Criminal Law
Practices or modus
operandi of offenders
District court acted within its discretion in
concluding that FBI special agent's testimony
about motorcycle club would be helpful to
jury, so as to support its admission as expert
testimony in prosecution related to racketeering
conspiracy arising from defendants' positions as
high-ranking officials in motorcycle club; special
agent's law enforcement expertise allowed him
to impart evidence regarding the inner-workings
of organized crime, including information
regarding the insular group's insignia, culture,
and organizational hierarchy. Fed. R. Evid. 702.

[37]

club was not improper expert testimony about
easily verified facts, in prosecution related to
racketeering conspiracy arising from defendants'
positions as high-ranking officials in motorcycle
club; special agent did not speak about purely
factual matters establishing the elements of the
charged crimes, and special agent was not the
case agent who investigated defendants, thus
minimizing any potential prejudice from special
agent's testimony.

[39]

Criminal Law
Right of Accused to
Confront Witnesses
As long as an expert forms his opinion
by amalgamating potentially testimonial
statements, his testimony does not violate the
Confrontation Clause. U.S. Const. Amend. 6.

[40]

Criminal Law

Particular issues

Criminal Law
Practices or modus
operandi of offenders
FBI special agent's testimony about typical
characteristics of president of motorcycle club
was not improper opinion testimony regarding
ultimate issue of mental state of defendant,
who was president of motorcycle club, in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Portillo, 969 F.3d 144 (2020)

prosecution related to racketeering conspiracy,
though defendant asserted that special agent's
testimony suggested that defendant necessarily
had knowledge of the activities of all of the
club's members; agent merely opined regarding
the typical mental state shared by individuals in
specific criminal role. Fed. R. Evid. 704(b).

[41]

Criminal Law

Opinions and conclusions

Criminal Law

Opinion evidence

[45]

Criminal Law
General

Prejudice to Defendant in

[46]

Criminal Law

[47]

Criminal Law

Witnesses
Former statements
corresponding with testimony
If a prior consistent statement was made after the
motive to fabricate arose, it is inadmissible under
the rule governing prior consistent statements.
Fed. R. Evid. 801(d)(1)(B)(i).

Evidence in general

An error in admitting evidence affects substantial
rights, and thus is not harmless, if there is
a reasonable probability that the improperly
admitted evidence contributed to the conviction.

[44]

Witnesses
Former statements
corresponding with testimony
Cooperating witnesses' confessions to law
enforcement that implicated defendants in
crimes were not admissible as prior consistent
statements to rebut implication on crossexamination that they fabricated their testimony,
in trial for crimes related to racketeering
conspiracy arising from defendants' positions
as high-ranking officials in motorcycle club,
even though witnesses did not have specific
plea agreements until well after they made their
confessions; motivation to fabricate based on
desire to obtain leniency from the government
existed when the prior statements were made
as well as at trial, and statements were made
to law enforcement, who were the same people
who could help witnesses get the benefits of
cooperation. Fed. R. Evid. 801(d)(1)(B)(i).

Under the “harmless error doctrine,” judgment
will be affirmed unless the error affected a
substantial right of the defendant.

[43]

Evidence in general

An error is harmless if, in light of the whole
record, the contested evidence did not contribute
to the verdict.

Any error in district court's admission of
FBI special agent's testimony about typical
characteristics of president of motorcycle club,
which defendant asserted was improper opinion
testimony regarding ultimate issue of his mental
state, was harmless, in prosecution related to
racketeering conspiracy arising from defendant's
role as president of motorcycle club; several
other witnesses confirmed many statements
made by special agent about authority of
president, history of motorcycle club, and club's
organizational structure and operations, any
erroneously admitted testimony constituted only
small portion of otherwise strong case, and
government introduced substantial evidence of
guilt. Fed. R. Evid. 704(b).

[42]

Criminal Law

[48]

Witnesses
Former statements
corresponding with testimony
Prior consistent statements may not be admitted
to counter all forms of impeachment or to
bolster the witness merely because he has been
discredited. Fed. R. Evid. 801(d)(1)(B).

Rulings as to evidence

Government bears the burden of establishing
that the erroneous admission of evidence was
harmless beyond a reasonable doubt.

[49]

Witnesses
Former statements
corresponding with testimony

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Portillo, 969 F.3d 144 (2020)

Cooperating witnesses' confessions to law
enforcement that implicated defendants in
crimes were not admissible under subsection
of rule governing admission of prior consistent
statements when the declarant is “attacked on
another ground” other than implication of recent
fabrication or recently created improper motive
or influence, in trial for crimes related to
racketeering conspiracy arising from defendants'
positions as high-ranking officials in motorcycle
club, though defendants raised inconsistencies
between the witnesses' statements and testimony;
defendants accused witnesses of inconsistency
only to support their claim that the witnesses
fabricated their stories, which fell under other
subsection of rule related to recent fabrication of
improper motive, not “another ground.” Fed. R.
Evid. 801(d)(1)(B)(ii).

[50]

that defendant planned and executed murder
as prior consistent statement based on attack
other than alleged motive to fabricate, in trial
for crimes related to racketeering conspiracy
arising from defendant's position as high-ranking
official in motorcycle club. Fed. R. Evid. 801(d)
(1)(B)(ii).

[53]

Witnesses' confessions implicating defendants
in murders were not admissible under rule
of completeness, in trial for crimes related to
racketeering conspiracy arising from defendants'
positions as high-ranking officials in motorcycle
club, though defendants affirmatively used
portions of confessions, and government asserted
that the prior consistent statements were
necessary to contextualize, clarify, or amplify
the inconsistent testimony used by defendants
in their cross-examinations; government did not
explain why defendants' references to prior
statements created misleading impression about
the entirety of the prior consistent statements,
and even if admission of some portion of the
statements was justified, there was no indication
why admission of the confessions in their
entirety was required. Fed. R. Evid. 106.

Criminal Law
Theory and Grounds of
Decision in Lower Court
If the evidence was admissible on any ground,
the district court's reliance on other grounds does
not affect the defendant's substantial rights, for
purposes of appeal.

[51]

Witnesses
Former statements
corresponding with testimony
A litigant may not introduce a prior consistent
statement if that statement was made at a time
when the litigant allegedly had a motive to
fabricate—even if the litigant supplements his
attack on the witness's credibility by pointing to
other flaws in the declarant's testimony. Fed. R.
Evid. 801(d)(1)(B)(ii).

[52]

1 Cases that cite this headnote
[54]

Criminal Law
Admission of whole
conversation, transaction, or instrument because
of admission of part or reference thereto
“Completeness rule” allows a party to introduce
other portions of a written or recorded statement
when the opposing side introduced only a portion
of that statement. Fed. R. Evid. 106.

Witnesses
Former statements
corresponding with testimony
Defense counsel's attack on government
witness's memory during cross-examination,
suggesting that events being fresher in
witness's mind closer to murder as basis for
inconsistencies in his testimony about whether
defendant gave go-ahead to murder victim, was
sufficient to justify admission of his confession

Criminal Law
Admission of whole
conversation, transaction, or instrument because
of admission of part or reference thereto

1 Cases that cite this headnote
[55]

Criminal Law
Admission of whole
conversation, transaction, or instrument because
of admission of part or reference thereto
Rule of completeness, allowing a party to
introduce other portions of a written or recorded

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Portillo, 969 F.3d 144 (2020)

statement when the opposing side introduced
only a portion of the statement, ensures that
all parts of a written or recorded statement
are considered contemporaneously and guards
against the danger that an out-of-context
statement may create such prejudice that it is
impossible to repair by a subsequent presentation
of additional material. Fed. R. Evid.106.

only after a clear showing of prejudicial abuse of
discretion. Fed. R. Evid. 403.

[59]

Criminal Law
Admission of whole
conversation, transaction, or instrument because
of admission of part or reference thereto
Rule of completeness operates independently
from the rule governing prior consistent
statements and allows the admission of such
statements even when they are otherwise barred
by the hearsay rules. Fed. R. Evid. 106, 801(d)
(1)(B).

[57]

Criminal Law

Witnesses

District court's error in admitting witnesses'
confessions implicating defendants as prior
consistent statements was harmless, in
prosecution for murder in aid of racketeering
and other crimes arising from defendants'
positions as high-ranking officials in motorcycle
club; improperly admitted statements duplicated
witnesses' lengthy, specific, and detailed
testimony regarding defendants' involvement in
two murders, government introduced powerful
circumstantial evidence to support defendant's
involvement in one murder, including evidence
of each defendant's role within the organization
and evidence about the aftermath of the murder
and defendants' reactions, and government did
not rely heavily on witnesses' confessions in its
closing arguments.

[58]

Criminal Law

Scope and Effect of

Criminal Law

Review De Novo

Co-defendant's contemporaneous objection
excused
defendant's
failure
to
contemporaneously object to admission of
evidence regarding prior convictions of other
members of motorcycle club, and the Court of
Appeals would review defendant's challenge to
district court's determination that the probative
value of that evidence outweighed the danger
of unfair prejudice de novo, rather than under
plain error standard applicable to unpreserved
errors, in racketeering prosecution arising from
defendant's and co-defendant's roles as highranking officials in motorcycle club; additional
motion or objection would have been useless
formality. Fed. R. Evid. 403.

1 Cases that cite this headnote
[56]

Criminal Law
Objection

[60]

Criminal Law
evidence

Weight and effect of

A defendant's guilt may not be proven by
showing that he associates with unsavory
characters.

[61]

Conspiracy
Object of Conspiracy, Means
of Accomplishing, and Conduct in Furtherance
Conspiracy

Knowledge and intent

In the context of a conspiracy charge, the
agreement, a defendant's guilty knowledge and
a defendant's participation in the conspiracy
all may be inferred from the development and
collation of circumstances, including evidence
about the defendant's presence and association
with other members of a conspiracy.

Relevance

In reviewing the district court's findings
regarding the weighing of the probative value of
evidence against the danger of unfair prejudice,
the Court of Appeals gives great deference to
the court's informed judgment and will reverse

[62]

Criminal Law
Evidence as to acts,
transactions, and occurrences to which accused
is not a party

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Portillo, 969 F.3d 144 (2020)

Evidence that former president of motorcycle
club pleaded guilty to Racketeer Influenced and
Corrupt Organizations Act (RICO) conspiracy,
after which defendant assumed that role,
and evidence of prior convictions of other
members of motorcycle club, was relevant to
racketeering conspiracy charges against two
defendants arising from their roles as highranking leaders in motorcycle club and to
rebut defense theory that club was familyfriendly motorcycle club, not connected to
violence or criminal activities; former president
was convicted of RICO conspiracy based on
his activities as president, dates of charged
conspiracy overlapped with former president's
conviction, and evidence regarding other
members' convictions undermined argument that
club was more “mainstream” under defendant's
presidency. Fed. R. Evid. 401.

[63]

Relevant evidence is inherently prejudicial;
but it is only unfair prejudice, substantially
outweighing probative value, which permits
exclusion of relevant matter. Fed. R. Evid. 403.

[65]

Effect of Admission

District court acted within its discretion in
determining that probative value of evidence
that former president of motorcycle club had
pleaded guilty to Racketeer Influenced and
Corrupt Organizations Act (RICO) conspiracy,
after which defendant assumed that role, and
evidence of prior convictions of other members
of motorcycle club, to show existence of
racketeering conspiracy and rebut defense theory
that club was family-friendly under defendant's
leadership, was not substantially outweighed
by danger of unfair prejudice, in racketeering
conspiracy prosecution against two defendants,
in light of district court's repeated limiting
instructions reminding jurors that evidence about
non-defendants' criminal activity could not be
used to prove defendants' guilt and could only be
used for limited purposes. Fed. R. Evid. 403.

[66]

Criminal Law
Evidence calculated
to create prejudice against or sympathy for
accused

Criminal Law
Judge

Role and Obligations of

Criminal Law
Functions as judges of law
and facts in general
A district judge in a jury trial is governor of the
trial for purposes of assuring its proper conduct
and of determining questions of law.

[67]

Criminal Law
Witnesses

Comments on Evidence or

Judges have both the right and the duty to
comment on the evidence to ensure a fair trial.

[68]
[64]

Comments on evidence and

District court did not plainly err in commenting
regarding well-known mafia movie to help
explain role of non-member “hangers-on” of
motorcycle club, as related to expert testimony
by FBI special agent regarding basis of
his knowledge, in racketeering conspiracy
prosecution against two defendants arising
from their roles as high-ranking officials in
motorcycle club, though that stray statement
was unnecessary; district court explained that
it was not suggesting that there was any
resemblance between the motorcycle club and
the mafia, reducing risk that jury would have
interpreted judge as demonstrating bias towards
government, and district court was careful to
explain at close of evidence that jury should
disregard anything the court might have said
during trial in arriving at their own verdict.

Criminal Law
Evidence as to acts,
transactions, and occurrences to which accused
is not a party
Criminal Law

Criminal Law
witnesses

Criminal Law
Judge
Witnesses
court

Remarks and Conduct of
Calling and examination by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Portillo, 969 F.3d 144 (2020)

Because judges have enormous influence on
the jury, they must act with a corresponding
responsibility when making comments or
questioning witnesses.

any confidential communications with her
psychotherapist were revealed to any third party.

[73]
[69]

Criminal Law

Review De Novo

Criminal Law

Evidence

Court of Appeals reviews factual findings
underlying ruling on psychotherapist-patient
privilege for clear error, and it reviews
application of the legal principles de novo.

[70]

Criminal Law
Findings

“Psychotherapist-patient privilege” protects
confidential communications between a
psychotherapist and a patient.

[74]

Privileged Communications and
Confidentiality
Psychotherapists

Privileged Communications and
Confidentiality
Waiver of privilege
Witness's testimony about fact of her
treatment relationship with psychotherapist, her
psychiatric conditions, and her medication
history did not waive her psychotherapistpatient privilege, in prosecution for Racketeer
Influenced and Corrupt Organizations Act
(RICO) conspiracy arising from defendants'
positions as high-ranking officials within
motorcycle club; witness did not provide any
details about the nature of her conversations
with her psychotherapist, witness had reasonable
expectation of confidentiality in her confidential
communications with her psychotherapist, and
witness's disclosures did not demonstrate that

Use of documentary

District court's failure to allow defendant access
to witness's psychiatric, psychological, and
counseling records did not violate defendant's
confrontation rights, in prosecution for
Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy arising from defendant's
position as high-ranking official within
motorcycle club; there was no indication that
defendant's ability to cross-examine witness was
hampered by lack of witness's mental health
records, and defense counsel was permitted
to ask witness detailed questions about her
psychiatric treatment and medication regimen on
cross-examination. U.S. Const. Amend. 6.

To obtain the benefits of the psychotherapistpatient privilege, the communication must be
confidential, between a licensed psychotherapist
and her patient, and conducted in the course of
diagnosis or treatment.

[72]

Criminal Law
evidence

Privileged Communications and
Confidentiality
Mental health records

Questions of Fact and

A district court's factual finding is clearly
erroneous if, on the entire evidence, the Court of
Appeals is left with a definite and firm conviction
that a mistake has been committed.

[71]

Privileged Communications and
Confidentiality
Psychotherapists

[75]

Criminal Law
Information Within
Knowledge of Prosecution
There was no indication that prosecution
team had access to witness's psychiatric,
psychological, and counseling records, and thus
prosecution did not violate
Brady by failing
to turn those documents over to defendant,
in prosecution for Racketeer Influenced and
Corrupt Organizations Act (RICO) conspiracy
arising from defendant's position as high-ranking
official within motorcycle club.

[76]

Witnesses

Particular offenses

Defense witness's prior convictions for felony
drug trafficking and conspiracy to transport and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Portillo, 969 F.3d 144 (2020)

receive explosives with the intent to kill and
damage buildings were admissible to contradict
his testimony that his motorcycle club, of which
he was national president, was simply a “funloving motorcycle club,” in prosecution of two
defendants, who were high-ranking officials in
another motorcycle club, for crimes relating to
Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy; witness's conspiracy
conviction was related to plot to kill members of
rival motorcycle club, suggesting that witness's
club participated in violent retaliatory acts
and not simply “fun-loving” entertainment, and
witness's drug conviction cast doubt upon his
innocent characterization of motorcycle club.

[77]

Criminal Law

Witnesses
Crime

Accusation or Conviction of

Witnesses
evidence

Competency of contradictory

Criminal Law

Witnesses

Any error in district court's admission of
evidence of defense witness's prior convictions
for felony drug trafficking and conspiracy to
transport and receive explosives with the intent
to kill and damage buildings to contradict
his testimony that his motorcycle club was
simply a “fun-loving” club was harmless,
in prosecution of two defendants, who were
high-ranking officials in another motorcycle
club, for crimes including murder of purported

Witnesses
Nature and extent of
inconsistency
To determine whether a statement is admissible
to impeach a hearsay declarant, the court must
first decide whether the proffered statement is
actually inconsistent with the hearsay statement
already admitted. Fed. R. Evid. 806.

[81]

Witnesses
Inconsistency of Statements as
Ground of Impeachment in General
Question whether proffered impeachment
evidence is sufficiently inconsistent with a
hearsay declarant's statement to be sent to the
jury on the issue of credibility is ordinarily in the
discretion of the trial court. Fed. R. Evid. 806.

[82]

Extrinsic evidence, which includes prior
convictions, is admissible to contradict specific
testimony, as long as the evidence is relevant
and its probative value is not substantially
outweighed by the danger of unfair prejudice.
Fed. R. Evid. 402, 403.

[79]

[80]

Form

The practice of a defendant adopting a codefendant's argument in his own brief is
permissible, as long as the issue does not raise
fact-specific challenges to a defendant's own
conviction or sentence. Fed. R. App. P. 28(i).

[78]

member of witness's club in aid of racketeering;
witness's testimony was relatively brief and did
little to challenge the elements of the charges
against defendants, and government presented
substantial evidence to dispute witness's claims
about relationship between the motorcycle clubs
and to establish defendants' responsibility for
murder. Fed. R. Evid. 402, 403.

Witnesses
Nature and extent of
inconsistency
District court acted within its discretion
in finding that statements in co-defendant's
jailhouse letter to defendant, including the
comment “You had nothing to do with it,”
were not inconsistent with statements he made
in recorded phone conversations introduced at
trial suggesting that defendant, as motorcycle
club's president, was aware of club members'
criminal activities and, thus, that the letter was
not admissible as impeachment evidence, in
prosecution for crimes relating to Racketeer
Influenced and Corrupt Organizations Act
(RICO) conspiracy; comments in recorded
conversation were not necessarily inconsistent
with vague and nebulous comments in letter,
and co-defendant's statements about defendant's
knowledge of major decisions were not
inconsistent with statements about lack of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Portillo, 969 F.3d 144 (2020)

affiliation with other specific crimes. Fed. R.
Evid. 806.

[83]

Criminal Law
Evidence calculated
to create prejudice against or sympathy for
accused
Criminal Law

Letters and telegrams

District court acted within its discretion in
finding that the minimal probative value of codefendant's jailhouse letter to defendant, which
included the comment “You had nothing to do
with it,” was substantially outweighed by the
high risk of prejudice, in prosecution for crimes
relating to Racketeer Influenced and Corrupt
Organizations Act (RICO) conspiracy, arising
from defendant's and co-defendant's positions as
high-ranking officials in motorcycle club. Fed.
R. Evid. 403.

[84]

Criminal Law

Constitutional questions

District court did not plainly err in imposing
special assessment of $100 on each of
defendant's 13 crimes of conviction, though
defendant asserted that those special assessments
were duplicative in violation of the Double
Jeopardy Clause, in prosecution for racketeering
conspiracy, conspiracy to commit murder in aid
of racketeering, conspiracy to commit an assault
with a deadly weapon in aid of racketeering, and
other crimes, where all of the crimes involved
distinct offenses and required the jury to find
distinct elements to convict, and defendant failed
to argue how those offenses should be considered
to constitute the same offense. U.S. Const.
Amend. 5.

[85]

Double Jeopardy
forfeitures

Fines, penalties, and

Separate special assessments on concurrent
counts of conviction violate the Double Jeopardy
Clause only if the assessments were imposed for
the same criminal act, but there is no double
jeopardy problem if the special assessments were
imposed for distinct criminal acts. U.S. Const.
Amend. 5.

*155 Appeals from the United States District Court for the
Western District of Texas, David A. Ezra, U.S. District Judge
Attorneys and Law Firms
Joseph H. Gay, Jr., Elizabeth Berenguer, Richard Louis
Durbin, Jr., Assistant U.S. Attorneys, U.S. Attorney's Office,
Western District of Texas, San Antonio, TX, for PlaintiffAppellee.
John F. Carroll, Attorney, San Antonio, TX, for DefendantAppellant John Xavier Portillo.
Philip J. Lynch, San Antonio, TX, for Defendant-Appellant
Jeffrey Fay Pike.
Before SMITH, HIGGINSON, and ENGELHARDT, Circuit
Judges.
Opinion
STEPHEN A. HIGGINSON, Circuit Judge:
*156 In 2018, following a three-month-long jury trial,
defendants-appellants Jeffrey Pike and John Portillo were
convicted of multiple counts related to a RICO conspiracy.
Their convictions arise out of their positions as high-ranking
officials with the Bandidos Outlaws Motorcycle Club, a
“one-percent” motorcycle club with deep roots in Texas. In
this direct appeal, they urge a variety of errors related to
the district court's pretrial procedures, the admissibility of
certain evidence, and the sufficiency of the evidence. For the
following reasons, we AFFIRM.

I. General Factual Background
We begin with an overview of the evidence presented at trial,
recounting the facts in the light most favorable to the jury's
verdict. See United States v. Mahmood, 820 F.3d 177, 181–
82 (5th Cir. 2016).
A. The Bandidos Outlaws Motorcycle Club
The Bandidos Outlaws Motorcycle Club (“Bandidos”) is
an international motorcycle club with approximately 1100
members worldwide. Members of the club describe it as a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

United States v. Portillo, 969 F.3d 144 (2020)

“one percent” motorcycle club—a designation that signifies
loyalty, brotherhood, and commitment. According to Special
Agent Scott Schuster, the government's expert witness, the
“one percent” classification is a way for the Bandidos to
“brand[ ] themselves as ... outlaw[s].” Johnny Romo, a
member of the Bandidos, explained at trial that the “one
percent” term means that “we're above all the other clubs.”
Though there are other one-percent motorcycle clubs in
the country, the Bandidos consider themselves “the most
dominant.”
The Bandidos use a variety of symbols to identify themselves
to one another and to outsiders. Members of the club wear
a three-piece patch, which includes an emblem of a cartoon
character known as “the fat Mexican.” In the emblem, the
character is depicted holding a semi-automatic pistol and
a machete. The bottom section of the patch, known as the
“bottom rocker,” identifies “the territory that [each] Bandido
is going to claim.” In Texas, for example, the bottom rocker
indicates that a member belongs to a Texas-based chapter. The
Bandidos closely guard the integrity of the bottom rocker, and
only allow full members of the club to wear the three-piece
patch. Before becoming an official member, prospects can
join support clubs, which are “a stepping stone to get closer
to the Bandidos.” Once an individual becomes a full member,
he has “patched in.”
Though the Bandidos have chapters across the world, the
club has a particularly strong presence in Texas. The club
was founded in March 1966 in San Leon, Texas. At the time
of trial, there were between 35 and 40 Bandidos chapters
in Texas, with about 400 Bandidos members statewide. The
Bandidos is the only major one-percent motorcycle club in
Texas.
The Bandidos maintain a highly-organized management
structure. Several national officers are responsible for
organizing regular events, including an annual summer run
and a spring birthday run. Local chapters are self-governing
and largely autonomous, though they are required to pay
dues to the national office to support the cost of the
group's events. The national office includes a President,
Vice President, Secretary, Treasurer, and several Sergeantsat-Arms. In addition to organizing events, national officers
control the selection and distribution of patches. *157
Patches are often distributed to acknowledge a member's
sacrifices on behalf of the club.

Jeffrey Pike served as national President of the Bandidos
from 2005 until 2016. Pike assumed this role after the group's
former President, George Wegers, pleaded guilty to a RICO
conspiracy. According to Schuster, the Bandidos President,
also known as El Presidente, has “full authority to make
decisions on a day-to-day basis.” Some members of the
Bandidos refer to the President's role as a “dictatorship.”
Pike disputes this characterization, and testified that the
“individual chapters run themselves.” Pike also testified
that it was his goal as President to make the group “more
mainstream” and “more family oriented” than it had been
under Wegers's leadership.
In 2002, John Portillo was promoted from local chapter
president of the San Antonio Bandidos chapter to national
Sergeant-at-Arms. In that position, Portillo was responsible
for protecting the group's national officers and managing
relationships between local chapters and rival clubs. Pike
selected Portillo as National Vice President, or El Vice
Presidente, in 2013. Schuster testified that the Vice President's
“purpose” was to provide the President “with plausible
deniability.” In one recorded conversation introduced at trial,
Portillo explained that he thought of himself as “Jeff's guy.”
“I'm here to protect [Pike] .... I'm gonna protect [him] from
the fuckin bullshit that's going on.” In another wiretapped
conversation, Portillo was recorded explaining that he “don't
make no majors without [Pike] knowing about it.”
B. Murder of Robert Lara
In 2001, Jay Negrete, a member of the San Antonio Bandidos
chapter, was shot and killed. At the time of Negrete's death,
Portillo was president of Negrete's local chapter. Magenta
Winans learned that Robert Lara was responsible for the
killing, and she reported the tip to the club. Portillo instructed
a group of Bandidos members, including Richard Merla, to
“take care of” Lara. Merla and several other Bandidos lured
Lara to a park, where they were told to wait for Portillo to give
them the order to kill Lara. Once they got the order, they shot
Lara at least twelve times. They did not stay on the scene to
see if Lara was “moving or if he was dead or alive.” They got
back in their truck and drove to the home of Portillo's brother,
who was a member of a Bandidos support club. Lara was later
found dead by the police.
When Merla next spoke with Portillo, Portillo told him that
he could never talk about Lara's murder. Merla gave Portillo
the gun used to shoot Lara, and Portillo burned it with a
torch. Merla and the other Bandidos were awarded “Expect

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

United States v. Portillo, 969 F.3d 144 (2020)

No Mercy patches,” which were intended to honor members
who “drew blood or shed blood for the club.”
C. Murder of Anthony Benesh
In 2005, Anthony Benesh and his friend Carl Michael Burford
decided that they wanted to start the first Hell's Angels chapter
in Texas. Hell's Angels, another one-percent motorcycle club,
had chapters across the United States, but not in Texas.
Benesh got a Hell's Angels tattoo on his back, painted his
motorcycle red and white, and began wearing a motorcycle
vest and jacket with an emblem that matched his tattoo. The
patch on his vest identified him as “Vice President” of the
Hell's Angels.
Burford testified that he traveled to Arizona to meet with
Sonny Barger, the national president of the Hell's Angels, to
get approval to start a Texas chapter. Barger *158 denied this
account, claiming that he would not have had the authority to
approve a new Hell's Angels chapter. Benesh and Burford's
actions quickly provoked anger from the Bandidos. Burford
tried to avoid conflict by limiting his use of the Hell's Angels
vest, but Benesh regularly wore his patch around Austin.
Adrianna Faircloth, Benesh's girlfriend, testified that Benesh
started receiving threatening calls about his display of the
Hell's Angels patch.
Johnny Romo, a Bandidos member, testified that he learned
about Benesh from Portillo. Portillo told him that there
were two Hell's Angels “riding their bikes” in Austin. He
explained that members of the local Austin chapter had
“tried everything” to fix the problem, including “threats,
intimidation, [and] fear.” At the time, Portillo and Johnny
were both Sergeants-at-Arms for the Bandidos national office.
Portillo told Johnny that Pike had personally directed them
to “take ... out” Benesh and Burford. Johnny testified that
Portillo told him “This came from Jeff Pike, we need to
take them out.” Johnny interpreted this order to mean that
Portillo and Pike wanted him to “kill [Benesh], murder, to get
rid of him.” Johnny explained that the club wanted to stop
Benesh and Burford because there “shouldn't be no other one
percenters but the Bandidos in Texas.”
Johnny testified that Portillo told him to assemble a group of
Bandidos members and go to Austin. Johnny picked a few
people he trusted to accompany him, including Robbie Romo,
his brother. At the time, Robbie was a prospective member of
the Bandidos who had not yet “patched in.”

The day before the murder, Johnny and the other men drove
from San Antonio to Austin to look for Benesh. They stayed
outside Benesh's house until dusk, and then drove home to
San Antonio. They returned to Austin the following day, and
Robbie brought a rifle with him. They drove to Benesh's
house, waited until he exited, then followed him and his
family to a restaurant, where they parked outside. About an
hour later, Johnny saw Benesh coming out of the restaurant
and alerted Robbie. Robbie got his rifle ready by positioning it
outside of the passenger's side window, aimed it at the driver's
side of Benesh's truck, and shot the back of Benesh's head.
Benesh was dead when the police arrived. Faircloth, Benesh's
girlfriend, told the officers that she had warned Benesh “not
to set up a Hell's Angel's chapter here.” Johnny and the crew
quickly fled the scene and immediately called Portillo from a
pay phone to tell him “it's ... done.”
When Johnny saw Pike a few months later, Pike gave him a
hug and a kiss and told him that he was “very proud” of him.
After the murder, Robbie, who was a prospect at the time of
the shooting, was allowed to “patch[ ] in early.” Johnny was
permitted to start an “underground chapter” of the Bandidos,
the “Fat Mexican Crew,” which answered directly to Pike.
Johnny and the crew also received Expect No Mercy patches.
D. Rivalry with the Cossacks
The Cossacks are a motorcycle club based in North Texas.
In 2014, Pike gave the Cossacks permission to add a Texas
bottom rocker symbol to their patch. Pike believed this was a
“natural transition for the club,” and he hoped that the gesture
would “open[ ] a line of communication between the two
clubs.” Eventually, however, the Bandidos became concerned
that the Cossacks were displaying the bottom rocker in a
“disrespectful” manner. Portillo told Johnny, “We're not going
to fuck around with them Cossacks, dude, it's on.” Justin
Forster testified that he heard Portillo *159 tell Pike that the
group had to “do what we got to do” to deal with the Cossacks.
Pike responded, “Whatever y'all do, just be careful.”
At trial, the government introduced evidence pertaining to
several violent altercations between the Cossacks and the
Bandidos.
• Fort Worth, December 2014: The Bandidos attacked
Cossacks members at a Fort Worth bar using guns,
clubs, and flashlights. During the attack, they took one
man outside and shot and killed him. In a recorded call
between Romo and Portillo after the incident, Portillo

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

United States v. Portillo, 969 F.3d 144 (2020)

explained that the Bandidos were “at war with these
mother fuckers.”
• Palo Pinto County, March 2015: Arthur David Young,
a member of the Cossacks, was at a gas station when
he was approached by a group of Bandidos in a black
car. When he refused to remove his vest, they hit him
repeatedly in the head with a hammer.
• Port Aransas, August 2015: A group of Bandidos
attacked several Cossacks members and their wives
with beer bottles, knives, and other weapons. After the
incident, Portillo was recorded saying that Pike “knows
a little bit about it.”

• Count Eight: Using and Discharging a Firearm During
and in Relation to a Crime of Violence (murder of Robert
Lara),

18 U.S.C. §§ 924(j)(1), 2 (Portillo)

• Count Nine: Using and Discharging a Firearm During
and in Relation to a Crime of Violence (murder of
Anthony Benesh),
and Pike)

• Count Ten: Conspiracy to Distribute and Possession
with Intent to Distribute 500 Grams or More of
Methamphetamine and Cocaine, 21 U.S.C. §§ 846,
841(a)(1),

E. Trial and Sentencing
Following the government's fourth superseding indictment, a
grand jury in the Western District of Texas returned a true bill
charging Pike and Portillo with the following thirteen counts:
• Count One: RICO Conspiracy,
(Portillo and Pike)

18 U.S.C. §§ 1959(a)(1), 2

• Count Three: Murder in Aid of Racketeering (for the
murder of Anthony Benesh),
(1), 2 (Portillo and Pike)

18 U.S.C. §§ 1959(a)

• Count Four: Conspiracy to Commit Murder in Aid of
Racketeering,
Pike)

841(b)(1)(A), (B) (Portillo)

• Count Eleven: Possession with Intent to Distribute
Cocaine,
(Portillo)

21 U.S.C. §§ 841(a)(1) &

841(b)(1)(C)

• Count Twelve: Conspiracy to Interfere with Commerce
18 U.S.C. § 1962(d)

• Count Two: Murder in Aid of Racketeering (for the
murder of Robert Lara),
(Portillo)

18 U.S.C. §§ 924(j)(1), 2 (Portillo

18 U.S.C. § 1959(a)(5) (Portillo and

by Threats or Violence,
and Pike)

18 U.S.C. § 1951 (Portillo

• Count Thirteen: Felon in Possession of a Firearm,
U.S.C. § 922(g)(1) (Portillo)

18

*160 The case proceeded to a three-month-long jury trial in
2018. On May 17, 2018, the jury returned a verdict finding
Portillo and Pike guilty on all counts. In 2018, Portillo was
sentenced to two life sentences plus two consecutive terms of
ten years on counts eight and nine. Pike was sentenced to one
life sentence, plus a consecutive term of ten years on count
nine. The defendants filed timely notices of appeal from their
judgments and sentences.

• Count Five: Conspiracy to Commit Assault with a
Dangerous Weapon in Aid of Racketeering,
U.S.C. § 1959(a)(6) (Portillo and Pike)

18

• Count Six: Assault with a Dangerous Weapon in Aid of
Racketeering (Palo Pinto County, Texas),
§§ 1959(a)(3), 2 (Portillo and Pike)

18 U.S.C.

• Count Seven: Assault with a Dangerous Weapon in Aid
of Racketeering (Port Aransas, Texas),
1959(a)(3), 2 (Portillo and Pike)

II. Discussion
A. Sixth Amendment Right to Counsel
[1] Portillo was indicted on December 16, 2015 and arrested
on January 6, 2016. On the day of his arrest, Portillo had an
initial appearance before a magistrate judge. Portillo argues
that he was deprived of his Sixth Amendment rights because
he was not represented by counsel during this appearance.

18 U.S.C. §§
i. Standard of Review

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

United States v. Portillo, 969 F.3d 144 (2020)

[2]
[3]
[4]
[5] Sixth Amendment claims are typicallydefendant's “initial appearance before a judicial officer.”
subject to de novo review. See United States v. Simpson, 645
Id. at 199, 128 S.Ct. 2578. As in Portillo's case, the initial
F.3d 300, 307 (5th Cir. 2011). However, if a defendant could
appearance in
Rothgery involved a formal notification of
have argued to the district court that he was deprived of his
“the charge in the complaint, ... various rights in further
Sixth Amendment rights but failed to do so, we review the
proceedings,” and a determination of “the conditions for
claim for plain error only. See Burton v. United States, 237
pretrial release.” Id. (citing 1 W. LaFave, J. Israel, N. King,
F.3d 490, 501 (5th Cir. 2000). Here, neither Portillo nor his
*161 & O. Kerr, Criminal Procedure § 1.4(g), p.135 (3d
counsel argued to the district court that he was deprived of
his Sixth Amendment rights during his initial appearance. To
establish plain error, a defendant must show a clear or obvious

ed. 2007)). Portillo correctly relies on
Rothgery for his
assertion that his Sixth Amendment right to counsel attached

error that affected his substantial rights. See
United States
v. Olano, 507 U.S. 725, 734–35, 113 S.Ct. 1770, 123 L.Ed.2d
508 (1993). If a defendant meets that standard, the court
“should exercise its discretion to correct the forfeited error
if the error seriously affects the fairness, integrity or public

during this hearing. See
id.;
Kirby v. Illinois, 406 U.S.
682, 689, 92 S.Ct. 1877, 32 L.Ed.2d 411 (1972).

reputation of judicial proceedings.”
Rosales-Mireles v.
United States, ––– U.S. ––––, 138 S. Ct. 1897, 1905, 201
L.Ed.2d 376 (2018) (internal quotation marks and citation
omitted).

postattachment proceeding.”

Rothgery, 554 U.S. at 211,

128 S.Ct. 2578 (emphasis added); see also
Michigan v.
Jackson, 475 U.S. 625, 629 n.3, 106 S.Ct. 1404, 89 L.Ed.2d

ii. Analysis
[6] [7] “In all criminal prosecutions, the accused shall ...
have the Assistance of Counsel for his defense.” U.S.
CONST. amend. VI. “The purpose of the Sixth Amendment
guarantee of counsel is to ensure that a defendant has the
assistance necessary to justify reliance on the outcome of the
proceeding.” United States v. Pleitez, 876 F.3d 150, 157 (5th
Cir. 2017) (quoting
Strickland v. Washington, 466 U.S.
668, 691–92, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984)). The
Supreme Court has explained that the right protected by the
Sixth Amendment “is limited by its terms: ‘it does not attach
until a prosecution is commenced.’ ” Rothgery v. Gillespie
County, 554 U.S. 191, 198, 128 S.Ct. 2578, 171 L.Ed.2d
366 (2008) (quoting
McNeil v. Wisconsin, 501 U.S. 171,
175, 111 S.Ct. 2204, 115 L.Ed.2d 158 (1991)). A prosecution
commences with “the initiation of adversary judicial criminal
proceedings—whether by way of formal charge, preliminary
hearing, indictment, information, or arraignment.”

[8]
[9] Though Portillo's Sixth Amendment rights had
attached by the time of his initial appearance, he was
not necessarily entitled to a lawyer during the proceeding.
Whether Sixth Amendment rights have attached is a separate
inquiry from whether “counsel must be present at a

Id.

(quoting United States v. Gouveia, 467 U.S. 180, 188, 104
S.Ct. 2292, 81 L.Ed.2d 146 (1984)).
In
Rothgery, the Supreme Court held that the Sixth
Amendment right to counsel attached at the time of a

631 (1986), overruled on other grounds by
Montejo v.
Louisiana, 556 U.S. 778, 129 S.Ct. 2079, 173 L.Ed.2d 955
(2009). After attachment occurs, a defendant “is entitled to
the presence of appointed counsel during any ‘critical stage’
of the postattachment proceedings.”
212, 128 S.Ct. 2578.

Rothgery, 554 U.S. at

[10] [11] “Neither the Supreme Court nor the Fifth Circuit
have [sic] delineated all of the critical stages at which a
defendant is entitled to the presence of counsel under the
Sixth Amendment.” Pleitez, 876 F.3d at 157. However, both
courts have identified some general characteristics that help
to determine whether a proceeding gives rise to a Sixth
Amendment right to counsel. A critical stage is a “trial-like
confrontation[ ] at which counsel would help the accused
in coping with legal problems or meeting his adversary.”
Rothgery, 554 U.S. at 212 n.16, 128 S.Ct. 2578 (cleaned
up). During a critical stage, “the results of the confrontation
might well settle the accused's fate and reduce the trial ... to
a mere formality.”
Gouveia, 467 U.S. at 189, 104 S.Ct.
2292 (citation omitted). We have explained that “[a] stage
is ... ‘critical’ where circumstances indicate that counsel's
presence is necessary to ensure a fair process.” Pleitez, 876
F.3d at 157–58.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

United States v. Portillo, 969 F.3d 144 (2020)

Portillo's initial appearance bears none of the markings of a
critical stage. During the hearing, the magistrate judge briefly
recited the facts of the indictment, the maximum penalties
Portillo faced, and the government's intent to detain him
without bond pending trial. The magistrate repeatedly warned
Portillo not to “talk about the facts” of his case and confirmed
that Portillo intended to hire his own attorney. Portillo was not
forced to make any potentially incriminating statements that
could jeopardize his defense, and he was not asked to make
strategic decisions about his case. In short, Portillo's initial
hearing did not pose the kind of difficult circumstances that
“require[ ] aid in coping with legal problems or assistance
in meeting [a defendant's] adversary.” McAfee v. Thaler, 630
F.3d 383, 391 (5th Cir. 2011) (citation omitted).
We therefore hold that Portillo was not deprived of his
Sixth Amendment rights during his initial appearance. See

allegations or inferences of potential risk.”
Id. at 1427.
In reviewing the district court's decision, the appeals court
may refer to evidence elicited at trial, in addition to evidence
presented before trial.
Id. “[T]he use of anonymous juries
will be upheld where evidence at trial supports the conclusion
that anonymity was warranted.”

Id.

ii. Analysis
Empaneling an anonymous jury “is a drastic measure[ ] which
should be undertaken only in limited and carefully delineated
circumstances.”
Id. “[T]his court [has] approved the use
of anonymous juries only ‘when needed to ensure against a
serious threat to juror safety.’ ”

United States v. Sanchez,

United States v. Dohm, 597 F.2d 535, 543 (5th Cir.
1979) (“The Constitution does not require that an accused
have an attorney with him at his initial appearance before

74 F.3d 562, 564 (5th Cir. 1996) (quoting
at 1427).

a magistrate.”), vacated in irrelevant part by
United
States v. Dohm, 618 F.2d 1169, 1175 (5th Cir. 1980); United
States v. Lopez, 426 F. App'x 260 (5th Cir. 2011); see also

[15]

United States v. Mendoza-Cecelia, 963 F.2d 1467, 1473–
74 (11th Cir. 1992) (holding that an initial appearance is
not a critical stage because it serves a largely administrative
function), abrogated on other grounds as recognized by
United States v. Rainey, 362 F.3d 733, 735 (11th Cir. 2004).
*162 B. Anonymous Jury
[12] Both defendants appeal the district court's decision
to empanel an anonymous jury and impose a variety of
safety measures. The court's order (1) prohibited jurors from
revealing “their names, addresses, or places of employment to
the parties”; (2) required all jurors to be “kept together during
recesses” and accompanied by the United States Marshals
Service during lunch; and (3) ordered the United States
Marshals to provide off-site parking and transportation for
jurors to and from the courthouse.

i. Standard of Review

[16]

[17] In

Krout, 66 F.3d

Krout, we identified a set of factors

that “may justify jury protection by anonymity.”
at 1427. These include:

66 F.3d

(1) the defendants’ involvement in
organized crime; (2) the defendants’
participation in a group with the
capacity to harm jurors; (3) the
defendants’ past attempts to interfere
with the judicial process or witnesses;
(4) the potential that, if convicted,
the defendants will suffer a lengthy
incarceration and substantial monetary
penalties; and, (5) extensive publicity
that could enhance the possibility that
jurors’ names would become public
and expose them to intimidation and
harassment.

Id. (citing cases). In evaluating whether the district court
abused its discretion in empaneling an anonymous jury, we

[13]
[14] A district court's decision to empanel an
look to the “totality of the circumstances.”
United States
anonymous jury is reviewed for an abuse of discretion. See
v. Branch, 91 F.3d 699, 724 (5th Cir. 1996) (citation omitted).
United States v. Krout, 66 F.3d 1420, 1426 (5th Cir. 1995).
Certain factors—such as “evidence that the defendant has in
The district court must “base its decision on more than mere
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

United States v. Portillo, 969 F.3d 144 (2020)

the past or intends in the future to tamper with the jury”—
may be sufficient on their own to warrant an anonymous jury.
Id.; see also
Krout, 66 F.3d at 1427 n.7 (observing
that “[a] lesser showing” on some factors “might be adequate
where specific evidence exists linking the defendant to
organized crime”);
United States v. Herrera, 466 F. App'x
409, 424 (5th Cir. 2012) (affirming use of an anonymous
jury even where there was no evidence on the third
factor).

Krout

Here, all of the
Krout factors support the district court's
decision to impose jury safety measures. First, the indictment
charged both defendants with serving at the highest levels
of an organized criminal group, demonstrating that their
involvement in organized crime was “both deeply rooted and
far-reaching.” The allegations about the Bandidos closely
resemble allegations about the Texas Mexican Mafia, the
criminal group that was prosecuted in
Krout. See
66
F.3d at 1427–28. Like the Texas Mexican Mafia, the Bandidos
self-identify as “outlaws,” and the evidence at trial established
the highly structured nature *163 of the organization, which
frequently resorted to violence to assure its power in Texas
motorcycle society.
The district court likewise did not abuse its discretion in
concluding that the Bandidos had the capacity to harm jurors
and had previously attempted to interfere with the judicial
process and intimidate witnesses. At trial, the government
introduced evidence that the Bandidos “instill a climate
of fear of reprisal” for witnesses who cooperate with
law enforcement. The culture of the Bandidos—including
the “Expect No Mercy” patch and the group's history of
encouraging violence against outsiders like Robert Lara and
Anthony Benesh—further underscored the potential danger
to jurors. See
United States v. Riggio, 70 F.3d 336, 340
n.22 (5th Cir. 1995) (holding that a history of witness threats
provided a “reasonable basis to conclude that similar threats
and attempts at intimidation were likely to be made to the
jurors if their identities were known”).
The fourth
Krout factor—the potential that the defendants
would face lengthy sentences and large monetary penalties if
convicted—was easily met here. Six of the charges against
the defendants carried maximum life sentences.

Finally, the district court did not abuse its discretion in
concluding that there was a risk of significant media attention
associated with this case. At the time of the district court's
order, the case had already received considerable press
coverage. And as the government points out, that publicity
continued throughout trial. See, e.g.,
United States v.
Edwards, 303 F.3d 606, 614 (5th Cir. 2002) (citing “the
intense media interest and highly charged emotional and
political fervor that surrounded the trial” as a basis for
anonymity protections); Branch, 91 F.3d at 724 (approving
the use of anonymous jury where there was an “enormous
amount of world-wide media attention generated by the case”
and the trial “aroused deep passions” (cleaned up)).
In addition, the district court took care to provide a “neutral
explanation” for the anonymity procedures, thus minimizing
the risk of potential prejudice. See, e.g.,
Krout, 66 F.3d
at 1426 n.5; Am. Jur. 2d Jury § 184 (explaining the need
to “giv[e] jurors a plausible and nonprejudicial reason for
not disclosing their identities”). The court explained that
the measures were “routine” and intended to ensure jurors’
privacy. We have observed that similar explanations reduce
the risk of prejudice to defendants. See

Riggio, 70 F.3d

at 340 n.23; see also
United States v. Ross, 33 F.3d
1507, 1521 (11th Cir. 1994) (holding that the court's “careful
instruction” about the need for the protections “eviscerated
any possible inference of Appellant's guilt arising from the
use of an anonymous jury”). Likewise, the court required
jurors to complete a supplemental questionnaire and allowed
additional voir dire questioning, ensuring that the defendants
“had access to a sufficient amount of information concerning
each of the prospective jurors.”

Herrera, 466 F. App'x at

424; see also
Branch, 91 F.3d at 724 (noting that “there is
no showing that refusing to release the names and addresses
of the jury prejudiced the defendants’ ability to select an
impartial jury”).
For the same reasons, the security measures ordered by the
court were not an abuse of discretion. In similar contexts,
we have approved identical precautions, including driving
jurors to and from the courthouse, and we have evaluated
these measures using the same

Krout factors identified

above. See
Herrera, 466 F. App'x at 424 (affirming the
use of “off-site parking and transportation to-and-from the
courthouse for the jury members”); see also

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Ross, 33

19

United States v. Portillo, 969 F.3d 144 (2020)

F.3d at 1519 (affirming district *164 court order requiring
jurors to “meet each morning in a central location to which
federal marshals would return them at the close of the court
day”). We therefore hold that the district court did not abuse
its discretion in empaneling an anonymous jury and imposing
security measures to protect the jury.

(2) with the intent of facilitating the offense's commission.”

review is “highly deferential to the verdict.”
Id. (quoting
United States v. Cannon, 750 F.3d 492, 506 (5th Cir. 2014)).
An appellate court “must affirm a conviction if, after viewing
the evidence and all reasonable inferences in the light most
favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a
reasonable doubt.” United States v. Vargas-Ocampo, 747 F.3d
299, 301 (5th Cir. 2014) (en banc).

See, e.g.,
United States v. Jones, 839 F.2d 1041, 1048
(5th Cir. 1988) (“The jury was entitled to interpret *165
[the defendant's] words as evidence of conspiracy.”). Robbie
Romo, Johnny's brother, also testified that his brother told
him that Pike was the person who “wanted this Hell's Angel
killed.”

Rosemond v. United States, 572 U.S. 65, 71, 134 S.Ct.
1240, 188 L.Ed.2d 248 (2014).

There was sufficient evidence presented at trial for the jury
to find Pike guilty of Count Three. Johnny Romo testified
that Portillo told him Benesh and Burford were riding their
motorcycles in Austin, and that an order had come directly
C. Sufficiency of the Evidence
[18] [19] Pike argues that there was insufficient evidence from Pike to “take them out.” Johnny testified that he
interpreted the phrase “take out” to mean “to kill him, murder,
presented at trial to support his conviction. Because Pike
to get rid of him.” Though Pike argues that this term could
preserved his challenge by moving for acquittal under Federal
have referred to a violent act other than murder, it was within
Rule of Criminal Procedure 29, we review his claim de novo.
the province of the jury to interpret the meaning of the term
United States v. Oti, 872 F.3d 678, 686 (5th Cir. 2017). This
and to conclude that Pike directed the brothers to kill Benesh.

The government also introduced substantial circumstantial
evidence regarding Pike's role in the organization and the
responsibilities of the Bandidos President. Portillo was
recorded explaining that he “don't make no majors without
i. Count Three
[Pike] knowing about it.” Referring to another incident,
[20]
[21] Count Three charged Pike with aiding and Portillo was recorded explaining that it would be “the end
abetting Anthony Benesh's murder in support of a
of me” if I “try to do that without Jeff's permission.”
racketeering enterprise, a crime under the Violent Crimes
Justin Forster, another Bandidos member, testified that “[a]ny
significant decision making ... falls on [the President].” There
in Aid of Racketeering (“VICAR”) Act.
18 U.S.C. §§
was also evidence introduced at trial demonstrating that Pike
1959(a)(1), 2. In order to establish a violation of this statute,
expressed support for Benesh's murder after it occurred,
the government must prove: “(1) an enterprise engaged in
including by personally approving the creation of the “Fat
racketeering; (2) the activities affected interstate commerce;
Mexican Crew.” See Owens, 724 F. App'x at 296 (explaining
(3) a murder; and (4) the murder was committed for payment
that the murder must be committed “for the purpose of
by the enterprise or for the purpose of gaining entrance to or
gaining entrance to or maintaining or increasing position in
maintaining or increasing position in an enterprise.” United
an enterprise” (citation omitted)). Collectively, this evidence
States v. Owens, 724 F. App'x 289, 296 (5th Cir. 2018)
was sufficient for a rational trier of fact to find the essential
(cleaned up); see also United States v. Velasquez, 881 F.3d
elements of the crime beyond a reasonable doubt. See United
314, 332 (5th Cir. 2018). 1
States v. Dovalina, 262 F.3d 472, 475 (5th Cir. 2001) (“Direct
evidence of intent is not necessary to support a defendant's
[22] [23] “Proof that a defendant was merely associated
conviction.”).
with a criminal, or that [he] was present at the scene of a
crime is not, without more, sufficient to sustain a conviction
for aiding and abetting a criminal venture.”
United States
v. Longoria, 569 F.2d 422, 425 (5th Cir. 1978). “[A] person
is liable ... for aiding and abetting a crime if (and only if) he
(1) takes an affirmative step in furtherance of that offense,

ii. Count One
[24] Count One charged Pike with a RICO conspiracy. To
establish liability under the RICO Act, the government must

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

United States v. Portillo, 969 F.3d 144 (2020)

prove “(1) that two or more people agreed to commit a
substantive RICO offense and (2) that the defendant knew
of and agreed to the overall objective of the RICO offense.”
United States v. Posada-Rios, 158 F.3d 832, 857 (5th Cir.
1998).
[25] With respect to the first prong, there was sufficient
evidence introduced at trial to show that Pike and other
Bandidos members agreed to engage in a pattern of
racketeering activity. 18 U.S.C. § 1962(c). Racketeering is
defined in the Act to include a number of offenses relevant
here, including “murder, robbery, ... extortion, ... or dealing in
a controlled substance.” § 1961(1). A pattern of racketeering
activity is defined to include “at least two acts of racketeering
activity.” § 1961(5). There was ample evidence demonstrating
that Pike made an agreement with other Bandidos to support
these activities. This includes Romo's statement regarding
Pike's order to murder Benesh and Justin Forster's testimony
regarding Pike's knowledge of, and support for, the group's
rivalry with the Cossacks. There was also substantial evidence
introduced at trial showing that other Bandidos members met
to discuss their agreement to commit murder, deal drugs, and
engage in other related activities on behalf of the club. Even
if Pike was not himself a party to these meetings, he can still
be held liable if there is evidence that he “knowingly and

defendant's “leadership role” in a criminal enterprise and
his “involvement in” criminal acts committed by the group).
There is also evidence in the record establishing that Pike
ordered an “ass kicking” for Hell's Angels members in
Connecticut who were causing conflict with the Bandidos.
And, as the government points out, Pike's role as President
placed him at the top of the Bandidos organizational chart,
which provided powerful circumstantial evidence of his
oversight of major decisions and activities taken by the group.
We have explained that evidence of this kind is often relevant
and highly probative in the context of a conspiracy charge. See
Posada-Rios, 158 F.3d at 857–58. Although Pike identifies
contrary evidence in the record suggesting that he wanted to
clean up the Bandidos’ image, this evidence does not refute
the persuasive evidence of guilt. See, e.g.,
United States v.
Millsaps, 157 F.3d 989, 994 (5th Cir. 1998) (observing that
it is the “responsibility of the trier of fact fairly to resolve
conflicts in testimony.” (citation omitted)).

iii. Count Nine
[27] Count Nine charged Pike with aiding and abetting the
discharge of a firearm in furtherance of Benesh's murder.
18 U.S.C. §§ 924(j)(1), 2. The jury was instructed that

willfully participated in the agreement.”
Smith v. United
States, 568 U.S. 106, 110, 133 S.Ct. 714, 184 L.Ed.2d 570

it could find Pike guilty of this count on a

(2013); see also

theory of liability. See
Pinkerton v. United States, 328
U.S. 640, 645–48, 66 S.Ct. 1180, 90 L.Ed. 1489 (1946).

United States v. Delgado, 401 F.3d 290,

296 (5th Cir. 2005) (en banc);
Posada-Rios, 158 F.3d at
857. These activities fit within the definition of racketeering
because they were intended to assure the supremacy of the
Bandidos through murder, extortion, and drug dealing. See,
e.g., United States v. Henley, 766 F.3d 893, 907–08 (8th
Cir. 2014) (concluding that there was sufficient evidence of
“racketeering activity” where “all of the predicate acts shared
a similar purpose of asserting the dominance of the [group]
and punishing those who committed real or *166 perceived
transgressions against the club or its members”).
[26] The evidence was also sufficient to establish that Pike
knew of and agreed to the objectives of the RICO offense. The
government introduced specific evidence establishing Pike's
involvement in the Bandidos’ criminal activities, including
Johnny's statement about Pike's ordering Benesh's murder
and Pike's endorsement of the war with the Cossacks.
See Owens, 724 F. App'x at 296–97 (upholding a RICO
conspiracy conviction where there was evidence of the

Pinkerton

Under
Pinkerton, Pike could be found guilty as long as
the use of the firearm was both reasonably foreseeable and in
furtherance of the conspiracy.
Id.; see also
United
States v. Dean, 59 F.3d 1479, 1490 (5th Cir. 1995) (upholding
§ 924(c)(1) conviction under a
Pinkerton theory of
liability where there was no evidence that the defendants
were aware that their co-conspirator was armed before he
committed the crime).
As explained above, the evidence was sufficient for the jury to
find Pike guilty of a RICO conspiracy. Because the evidence
also supports the conclusion that Benesh was murdered as a
punishment for a “real or perceived transgression[ ] against
the club or its members,” Henley, 766 F.3d at 907–08, the
evidence was sufficient to find that Benesh was murdered
in furtherance of the conspiracy. Finally, it was reasonably
foreseeable that a firearm would be used to murder Benesh.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

United States v. Portillo, 969 F.3d 144 (2020)

See
United States v. Wilson, 105 F.3d 219, 221 (5th Cir.
1997) (holding that a defendant can be held liable under
Pinkerton “regardless of whether he had knowledge of
or participated in the substantive acts”). As a result, there
was sufficient evidence to support Pike's conviction on Count
Nine.

iv. Counts Four through Seven
Counts Four through Seven charged Pike with VICAR
offenses related to the Bandidos’ rivalry with the Cossacks.
See
18 U.S.C. §§ 1959(a)(3), (5), (6), 2. Pike was
found guilty of conspiring to commit murder and assault
with a deadly weapon against Cossacks members in aid of
racketeering (Counts Four and Five), aiding and abetting the
Bandidos’ assault of a Cossack in Palo Pinto County (Count
Six), and aiding and abetting the assault of another *167
Cossack in August 2015 in Port Aransas (Count Seven).
[28] With respect to Counts Four and Five, there was
sufficient evidence introduced at trial to show that Pike was
aware of the Bandidos’ disagreements with the Cossacks and
that he endorsed the group's plans to address the problem
through violence. See
Salinas v. United States, 522 U.S.
52, 63, 118 S.Ct. 469, 139 L.Ed.2d 352 (1997) (“A conspiracy
may exist even if a conspirator does not agree to commit or
facilitate each and every part of the substantive offense.”).
When Portillo explained that he wanted to “turn up the heat”
on the Cossacks, Pike reportedly said “whatever y'all do, y'all
be careful.” In the same conversation, Pike agreed to “turn
his back” on the Bandidos’ future retaliatory actions. And in
another conversation, Portillo explained that Pike told him to
“play ball” and “batter up motherfucker” when discussing the
group's plans for addressing the problem with the Cossacks
in Crystal City. The government also introduced evidence of
assaults and murders against Cossack members throughout
Texas, including the murder of a Cossack associate during
the altercation in Fort Worth and violent assaults in Port
Aransas and Palo Pinto County. This evidence was sufficient
to convict Pike even if there is no evidence that Pike agreed
to the specific acts of the conspiracy. See
id.; Velasquez,
881 F.3d at 332. Evidence presented at trial supported the
conclusion that Pike made all major decisions for the group
and therefore participated in the conspiracy. See
United
States v. Salvatore, 110 F.3d 1131, 1137 (5th Cir. 1997),

abrogated on other grounds by Cleveland v. United States,
531 U.S. 12, 121 S.Ct. 365, 148 L.Ed.2d 221 (2000).
[29] Likewise, the evidence was sufficient to find Pike
guilty on Counts Six and Seven. The specific instances of
violence in Palo Pinto County and Port Aransas were both
reasonably foreseeable and in furtherance of the conspiracy.
See
Pinkerton, 328 U.S. at 645–48, 66 S.Ct. 1180. These
acts of violence were intended to punish the Cossacks for
their perceived transgressions against the group. See Henley,
766 F.3d at 907–08. As a result, these acts were “the very
essence of, and thus a reasonably foreseeable part of,” the
conspiracy.
United States v. Maceo, 947 F.2d 1191, 1198
(5th Cir. 1991).

v. Count Twelve
[30] Finally, Count Twelve charged Pike with conspiring to
interfere with interstate commerce by extortion or robbery,
a violation of the Hobbs Act,
18 U.S.C. § 1951. To
establish liability under this statute, the government need
only show that interstate commerce was affected “in any
way or degree.” Id. The government introduced evidence at
trial showing that Pike authorized a plan for Bandidos to
travel from Texas to New Mexico to violently confiscate
patches from members who were challenging his authority.
Justin Forster testified that Pike told him to “handle the
problem” caused by these members. Forster traveled with
a few other Bandidos members to New Mexico, where
they “started beating everybody up” who refused to say
that Pike was their President. Forster testified that he
forcefully confiscated sixteen patches from defiant New
Mexico Bandidos members, and they burned the majority of
the patches and paraphernalia. Even if the patches belonged to
the Bandidos and not to the disobedient individual members,
this evidence was sufficient to convict Pike. See United States
v. Sturman, 49 F.3d 1275, 1284 (7th Cir. 1995) (“One may
be found guilty of extortion even for obtaining one's own
property.”); Lucas Martin, Extortion, Blackmail, and Threats,
*168 31A Am. Jur. 2d Extortion, Blackmail, etc. § 96 (2020)
(“A defendant's claim of right to property is irrelevant in an
extortion case.”).
We therefore hold that the evidence was sufficient to support
Pike's conviction on all counts.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

United States v. Portillo, 969 F.3d 144 (2020)

D. Evidentiary Rulings
The defendants challenge several of the district court's
evidentiary rulings, arguing that the district court improperly
admitted certain evidence and that the errors affected their
substantial rights.

government that there would be grounds to declare a mistrial.
At trial, Schuster testified about the organizational structure
of the Bandidos and the roles of each national officer. After
the verdict was announced, the defendants moved for a new
trial on the basis of Schuster's testimony, and the district court
denied the motion.

[31] [32] [33] Where a defendant preserved his objection Pike and Portillo both argue that the district court abused
to the admissibility of the evidence, we review the district
its discretion in admitting expert testimony from Schuster.
court's rulings for an abuse of discretion.
United States v.
Cantu, 167 F.3d 198, 203 (5th Cir. 1999). “A district court
abuses its discretion if it bases its decision on an error of law
or a clearly erroneous assessment of the evidence.” United
States v. Insaulgarat, 378 F.3d 456, 464 (5th Cir. 2004). In
criminal cases, the court's “review of evidentiary rulings ...
is necessarily heightened,” and the court should ensure that
the evidence is “strictly relevant to the particular offense
charged.” United States v. Anderson, 933 F.2d 1261, 1268 (5th
Cir. 1991) (citation omitted).
[34] Where the defendant did not object to the admissibility
of the evidence at trial, we review the claim for plain error
only. United States v. Bilbo, 19 F.3d 912, 916 (5th Cir. 1994).
“We find plain error when: (1) there was an error; (2) the
error was clear and obvious; and (3) the error affected the
defendant's substantial rights.”
United States v. Infante,
404 F.3d 376, 394 (5th Cir. 2005). If these elements are met,
the court “should exercise its discretion to correct the forfeited
error if the error seriously affects the fairness, integrity
or public reputation of judicial proceedings.”
RosalesMireles, 138 S. Ct. at 1905 (internal quotation marks and
citation omitted).
i. Agent Schuster's Expert Testimony
Over the defendants’ objections, the district court granted
the government's motion to introduce expert testimony
from Special Agent Scott Schuster. The court explained
that Schuster had taken time to develop his understanding
of the Bandidos through years of investigation and
conversations with insiders and outsiders, demonstrating
that his understanding of the group was “far above that
of the general public.” Before bringing the jury back to
the courtroom, however, the court placed limitations on
Schuster's testimony. The court warned the government that
Schuster would not be “allowed to give any direct opinion
about the guilt or innocence ... of any defendant in this case.”
If Schuster veered across that line, the court warned the

They argue that (1) Schuster was not qualified to testify as
an expert; (2) Schuster impermissibly restated inadmissible
hearsay; and (3) Schuster violated Federal Rule of Evidence
704(b) by testifying to the specific mental state of the
defendants.
[35] First, the district court did not abuse its discretion when
it held that Schuster was qualified to testify as an expert.
Under Federal Rule of Evidence 702, a witness “who is
qualified as an *169 expert by knowledge, skill, experience,
training, or education” may testify as long as (1) his
“scientific, technical, or other specialized knowledge ... will
help the trier of fact to understand the evidence or to determine
a fact in issue”; (2) “the testimony is based upon sufficient
facts or data”; (3) “the testimony is the product of reliable
principles and methods”; and (4) “he has reliably applied
the principles and methods to the facts of the case.” During
voir dire, Schuster explained that he developed his knowledge
of the Bandidos over twelve years as an FBI special agent,
including eight years working on a task force investigating
gangs and at least five years investigating the Bandidos
in particular. His knowledge was based on interviews with
current and former Bandidos members, document review, and
collaboration with confidential informants.
We have previously approved the qualifications of experts
who use their investigative training to testify about organized
criminal enterprises like the Bandidos. In
United States v.
Washington, 44 F.3d 1271, 1283 (5th Cir. 1995), we affirmed
the qualifications of two government agents who testified as
experts about “the significance of certain conduct or methods
of operation unique to the drug distribution business.”
Other circuits have similarly affirmed the qualifications of
experts who use their law enforcement training to gain an
understanding of insular criminal groups. See, e.g., United
States v. Rios, 830 F.3d 403, 413 (6th Cir. 2016);
United
States v. Mejia, 545 F.3d 179, 194 (2d Cir. 2008). These
cases clarify that a law enforcement expert does not need
“scientific” knowledge in order to be qualified as an expert;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

United States v. Portillo, 969 F.3d 144 (2020)

instead, “other types of specialized knowledge,” including
an investigative background, are often far more applicable in
the context of a criminal organization. Rios, 830 F.3d at 413.
Schuster's knowledge about the Bandidos was informed by
years of on-the-ground investigative training. This training
made Schuster's testimony reliable and sufficiently supported
to be admissible at trial. See id. at 414;
Tocco, 200 F.3d 401, 419 (6th Cir. 2000).

United States v.

[36] Likewise, the district court did not abuse its discretion
in concluding that Schuster's testimony would be helpful to
the jury. In
Washington, we held that the testimony of
an “experienced narcotics agent” regarding “the significance
of certain conduct or methods of operation unique to the
drug distribution business” would be “helpful in assisting
the trier of fact understand the evidence.”
44 F.3d at
1283. Schuster's law enforcement expertise allowed him
to “impart[ ] evidence regarding the inner-workings of
organized crime, which has been held to be a proper subject
of expert opinion.” Rios, 830 F.3d at 413 (cleaned up). Other
courts have similarly allowed law enforcement experts to
testify about the structure of a criminal enterprise, including
an insular group's insignia, history, culture, and organizational
hierarchy. See id. at 413–14 (observing that “an FBI agent
in a case about organized crime may properly give expert
testimony on the structure, organization, and the rules of the
organized-crime entity” (cleaned up));
United States v.
Kamahele, 748 F.3d 984, 998 (10th Cir. 2014); United States
v. Van Dorn, 925 F.2d 1331, 1338–39 (11th Cir. 1991).
[37] Pike argues that Schuster impermissibly testified about
easily verified facts—an area courts have declared off-limits
for expert witnesses. See
Mejia, 545 F.3d at 190 (“An
increasingly thinning line separates the legitimate use of an
officer expert to ... explicate an organization's hierarchical
structure from the illegitimate and impermissible substitution
of expert opinion for factual evidence.”); see also *170
United States v. Haines, 803 F.3d 713, 731 (5th Cir.
2015) (observing that the “aura of special reliability” given to
experts creates a risk that the jury might place “undue weight”
on the expert's testimony based on the “perception that the
officer was privy to facts not presented at trial” (citation
omitted)). Pike notes that Schuster testified about specific
historical crimes committed by Bandidos, and argues that
this testimony was fact-specific and not helpful to the jury.
As the government argues, however, Schuster did not speak
about “purely factual matters establishing the elements of the

charged crime.” See
Mejia, 545 F.3d at 194–96 (holding
that certain expert testimony about the defendant's alleged
crimes was unhelpful because it was “well within the grasp
of the average juror”). Moreover, Schuster was not the case
agent who investigated Pike and Portillo, thus minimizing any
prejudice potentially caused by his testimony. See Haines,
803 F.3d at 730–31; United States v. Sykes, 277 F. App'x 397,
398 (5th Cir. 2008) (dismissing claim that expert erroneously
testified as both an expert and fact witness where there was
no evidence that the “theoretical concerns” about a witness's
dual roles prejudiced the defendants).
[38] Second, Schuster did not impermissibly reveal hearsay
during the course of his testimony. Under Federal Rule of
Evidence 703, an expert can base his opinion on otherwise
inadmissible facts and data, including hearsay, as long as
these sources are “reasonably rel[ied] on” by experts in the
field. Here, Schuster's reliance on hearsay evidence, including
statements made by Bandidos members in interviews and
intercepted phone calls, is “consistent with the ordinary
practices of law enforcement officers, who routinely and
reasonably rely upon hearsay in reaching their conclusions.”
Mejia, 545 F.3d at 197 (cleaned up). Schuster used his
expertise to synthesize “various source materials,” rather
than simply regurgitating information he learned from those
sources. See

id.

[39] For the same reason, Portillo's Confrontation Clause
argument also fails. Portillo did not object to Schuster's
testimony on this basis, so we review this claim for plain error
only. Portillo does not identify any “testimonial statements
within the meaning of
Crawford v. Washington, [541
U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004),] or
any impermissible hearsay at all, relayed by [Schuster's]
testimony.”
United States v. Akins, 746 F.3d 590, 603
(5th Cir. 2014). As long as an expert forms his opinion
by “amalgamating... potentially testimonial statements,” his
testimony does not violate the Confrontation Clause. Rios,
830 F.3d at 418 (emphasis added); see also
at 603.

Akins, 746 F.3d

[40] Finally, the defendants argue that Schuster's testimony
impermissibly opined on their mental states. Under Federal
Rule of Evidence 704(b), an expert witness in a criminal case
“must not state an opinion about whether the defendant did
or did not have a mental state or condition that constitutes

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

United States v. Portillo, 969 F.3d 144 (2020)

an element of the crime charged or of a defense.” We have
interpreted Rule 704(b) narrowly, explaining that it only
prohibits statements that “directly opine[ ] on the ultimate
issue of [a defendant's] mental state.” United States v. Dvorin,
817 F.3d 438, 448 (5th Cir. 2016) (emphasis added); see also
United States v. Speer, 30 F.3d 605, 610 (5th Cir. 1994)
(“Rule 704(b) is not strictly construed and prohibits only a
direct statement of the defendant's intent.”); 29 Charles Alan
Wright & Victor James Gold, Federal Practice & Procedure §
6285, at 395 (1997) (“Rule 704(b) usually bars only a direct
statement that defendant did or did not have the required
mental state.”).
*171 Pike argues that Schuster violated Rule 704(b)
when he testified about the typical characteristics of the
Bandidos President. According to Pike, this testimony was
impermissible because it communicated the opinion that
Pike “must have known of and participated in the charged
offenses.” He relies upon our opinion in
United States
v. Gutierrez-Farias, 294 F.3d 657, 663 (5th Cir. 2002),
where we held that a district court abused its discretion
when it permitted expert testimony about the knowledge
typically possessed by drug couriers. We explained that this
testimony crossed the “borderline long recognized ... between
a mere explanation of the expert's analysis of the facts and
a forbidden opinion on the ultimate legal issue in the case.”
Id. (cleaned up). Pike argues that Schuster's testimony
veered across this line because it suggested that Pike, as
President of the Bandidos, necessarily had knowledge of the
activities of all of the club's members. However, he fails to
identify any testimony from Schuster that “directly opined
on the ultimate issue” of Pike's mental state. Dvorin, 817
F.3d at 448. In a similar context, we have held that expert
testimony about the typical mental state shared by individuals
in a specific criminal role does not violate the Rule 704(b)

establishing that the erroneous admission of evidence was
harmless beyond a reasonable doubt.
United States v.
Ebron, 683 F.3d 105, 131 (5th Cir. 2012). An “error is
harmless if, in light of the whole record, the contested
evidence did not contribute to the verdict.” United States v.
Dixon, 185 F.3d 393, 398 (5th Cir. 1999).
Here, several other witnesses independently confirmed many
statements made by Schuster about the authority of the
President, the history of the Bandidos, and the group's
organizational structure and operations. We have explained
that an error can be harmless when the improperly admitted
evidence merely duplicates other evidence in the record. See
Akins, 746 F.3d at 600 (“To the extent that certain portions
of [the expert's] testimony at times crossed the line ... it
was cumulative of other testimony and therefore harmless.”);
United States v. El-Mezain, 664 F.3d 467, 513 (5th Cir.
2011);
Krout, 66 F.3d at 1433. Likewise, any erroneously
admitted testimony “constituted only a small portion of an
otherwise strong case.” Gutierrez-Farias, 294 F.3d at 663.
The government introduced substantial evidence of guilt,
further supporting the conclusion that any error was harmless.
See
Washington, 44 F.3d at 1283 (holding that an error
is harmless if there is “overwhelming evidence establishing
[the defendant's] guilt”). Against this backdrop, any errors
in the admission of Schuster's testimony did not impact the
defendants’ substantial rights, and we therefore affirm.

ii. Prior Consistent Statements
The defendants argue that the district court erred when it
admitted three prior consistent statements during the trial.
Pike and Portillo both argue that the district court erred
when it admitted: (1) Johnny Romo's statement to law
enforcement *172 after he was arrested for the murder
bar. See United States v. Morin, 627 F.3d 985, 996 (5th Cir.
of Anthony Benesh, and (2) Robbie Romo's confession to
2010).
law enforcement after he was implicated by his brother in
Benesh's murder. Separately, Portillo argues that the district
[41]
[42]
[43]
[44]
[45] Even if it was an abuse of
court erred when it admitted a confession Richard Merla gave
discretion for the district court to admit this or any other
to law enforcement after he was arrested for the murder of
part of Schuster's testimony, any error was harmless. Under
Robert Lara.
the harmless error doctrine, “judgment will be affirmed ...
unless the error affected a substantial right of the defendant.”
United States v. Valencia, 600 F.3d 389, 423 (5th Cir. 2010).
“An error affects substantial rights if there is a reasonable
a. Romo Brothers’ Statements
probability that the improperly admitted evidence contributed
After he was arrested on federal narcotics charges in 2014,
to the conviction.” United States v. Sumlin, 489 F.3d 683,
Johnny Romo began cooperating with federal authorities.
688 (5th Cir. 2007). The government bears the burden of
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

United States v. Portillo, 969 F.3d 144 (2020)

The government later learned that Johnny and his brother
Robbie were responsible for the murder of Anthony Benesh,
and they arrested Johnny on murder charges in March
2017. Johnny gave a lengthy statement confessing to his
involvement in the murder and implicating his brother as
the shooter. The government later recorded a conversation
between Johnny and Robbie during which Johnny encouraged
Robbie to cooperate with the government. Immediately after
that conversation, Robbie confessed to his role as the shooter.
Both of the Romo brothers testified at trial. During direct
examination, they each implicated Pike and Portillo in
Benesh's murder. On cross examination, the defendants
cast doubt upon the reliability of the Romos’ testimony,
suggesting that the brothers were fabricating their stories in
order to receive a benefit from the government.
Appellants point to no improper use by the government
of the Romo brothers’ prior consistent statements during
direct examination. However, during cross-examination, both
defendants asked the brothers about their confessions to
law enforcement. During Portillo's cross of Johnny, Johnny
admitted that he provided information about Portillo's
involvement in the murder only after he communicated
with Robbie. Pike's counsel also used portions of
Johnny's conversation with the authorities during his cross
examination, suggesting that Johnny had previously told the
authorities that he did not intend to murder Benesh and only
wanted to beat him up. During their cross of Robbie, the
defendants used portions of Robbie's recorded confession to
argue that Robbie had previously told law enforcement that
he did not go to Austin with the intent to kill Benesh, casting
doubt on the consistency of his story.
After Johnny testified, the district court granted the
government's request to introduce Johnny's confession. The
court held that this recorded statement was admissible as a
prior consistent statement under Federal Rule of Evidence
801(d)(1)(B). The government introduced the video recording
and the transcript of Johnny's conversation with the agents
during its direct examination of Chad Lloyd, one of the agents
involved in the investigation of the Benesh murder.
Later, the court addressed the admissibility of Robbie's
statement and also found that it was admissible as a prior
consistent statement. The statement was introduced during
the government's direct examination of Jeb Killian, another
federal agent involved in the investigation.

b. Richard Merla's Statement
Two years after Robert Lara was shot and killed in retaliation
for killing a Bandidos member, Richard Merla was arrested
for killing another man. While he was in jail, Merla confessed
to killing Lara in 2002 and implicated Portillo in Lara's
murder. On cross-examination, Portillo's counsel attacked
Merla's credibility, suggesting that he implicated Portillo
only because he was angry at him for expelling him from
the Bandidos. Portillo also suggested that Merla's memory
was unreliable and that *173 there were inconsistencies
between his in-court testimony and his prison confession.
During the government's re-direct of Merla, the court allowed
the government to introduce Merla's confession as a prior
consistent statement. In his one-page confession, Merla stated
that “[t]he murder of Robert Lara was planned and executed
by Chapter President John Portillo of the Southwest Chapter
of Bandidos.”

c. Analysis
The government argues that all three statements were
admissible under Federal Rule of Evidence 801(d)(1)(B) or
under Federal Rule of Evidence 106.
Federal Rule of Evidence 801(d)(1)(B) provides that a
declarant-witness's prior consistent statement is not hearsay if
“[t]he declarant testifies and is subject to cross-examination
about a prior statement,” and the prior statement is offered for
one of two reasons: “(i) to rebut an express or implied charge
that the declarant recently fabricated [his testimony] or acted
from a recent improper influence or motive in so testifying; or
(ii) to rehabilitate the declarant's credibility as a witness when
attacked on another ground.”
[46]
[47]
[48] First, the government argues that the
Romo brothers’ statements were admissible under 801(d)(1)
(B)(i) to “rebut the implication that the Romo brothers ...
had fabricated their testimony in the hopes of receiving a
lower sentence under the terms of their plea agreements.”
In
Tome v. United States, 513 U.S. 150, 115 S.Ct. 696,
130 L.Ed.2d 574 (1995), the Supreme Court explained that
a prior consistent statement is admissible under this rule if
“the statement [was] made before the alleged fabrication,
influence, or motive came into being.” Id. at 156, 115 S.Ct.
696 (emphasis added). If it was made after that motive arose,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

United States v. Portillo, 969 F.3d 144 (2020)

it is “inadmissible.”
Id. “Prior consistent statements may
not be admitted to counter all forms of impeachment or to
bolster the witness merely because [ ]he has been discredited.”
Id. at 157, 115 S.Ct. 696.
Here, the defendants’ cross-examinations implied that the
Romos created a falsified narrative in the hopes of receiving
leniency from the government. Because this claimed motive
to fabricate also existed at the time that the prior consistent
statements were made, the admission of these statements
under Rule 801(d)(1)(B)(i) violated
Tome. See id. at
154-56, 115 S.Ct. at 700. When Johnny and Robbie confessed
to law enforcement, they were both arguably motivated by
a desire to shift the blame onto Pike and Portillo in order to
obtain the benefits of cooperation. Despite the government's
arguments to the contrary, this motivation existed regardless
of the fact that the brothers did not have specific plea
agreements until well after they made their confessions.
Indeed, at the time that Johnny spoke with law enforcement
and implicated himself and his brother in Benesh's murder,
Johnny had already told the authorities that he wanted to help
his brother get a plea deal, and both brothers testified that they
spoke with law enforcement with the full awareness that they
may be able to reduce their sentences through cooperation.
This same motivation—a desire to obtain the benefits of
government cooperation—persisted at trial, distinguishing
this case from cases where we have permitted the admission
of prior consistent statements under
Tome. In
United
States v. Wilson, for example, we allowed the government to
introduce a letter written by a government cooperator years
before his plea bargain, in which the cooperator implicated
the defendant in drug crimes. 355 F.3d 358, 361 (5th Cir.
2003). We noted that the letter was written before the
cooperator had a plea agreement; critically, however, it was
*174 also written “to a person who could not directly
help [the witness] avoid prison time,” thus eliminating the
cooperator's motivation to lie. Id. (emphasis added). Unlike
Wilson, the Romo brothers’ prior statements were made to law
enforcement—the same people who could help the Romos get
the benefits of cooperation. Because the motive implied by the
defendants—the brothers’ desire to obtain leniency from the
government—existed when the prior statements were made as
well as at trial, the prior statements were inadmissible under
801(d)(1)(B)(i). See
United States v. Williams, 264 F.3d
561, 575 (5th Cir. 2001).

[49]
[50] In the alternative, the government argues that
all three statements were admissible under 801(d)(1)(B)(ii).
Though it is not clear that the district court relied on this
portion of the rule when it found the statements admissible,
“[t]hat is not the end of our inquiry.” 2
United States v.
Jensen, 41 F.3d 946, 958 (5th Cir. 1994). “If the evidence was
admissible on any ground, the district court's reliance on other
grounds does not affect the defendant's substantial rights.”
Id. Under 801(d)(1)(B)(ii), a prior consistent statement
may be admitted “to rehabilitate the declarant's credibility as a
witness when attacked on another ground.” Id. Subsection
ii was added to the rule in 2014 “to extend substantive
effect to consistent statements that rebut other attacks on
a witness—such as the charges of inconsistency or faulty
memory.” Fed. R. Evid. 801 (Advisory Committee's Note to
2014 Amendment); see also United States v. Flores, 945 F.3d
687, 705 (2d Cir. 2019) (admitting prior consistent statement
where defendant argued that the witness could not be trusted
because the incident occurred long ago).
We do not agree that the Romo brothers’ statements
were admissible under 801(d)(1)(B)(ii). The government
cites several instances where the defendants identified
inconsistencies between the brothers’ earlier statements and
their testimony at trial. Specifically, the defendants suggested
that the brothers’ earlier statements diverged from their
testimony on several points, including: (1) how Robbie got
the gun, (2) how Robbie was selected to be the shooter,
(3) when Portillo gave the order to kill Benesh, and (4)
whether the plan was to kill Benesh or simply to threaten him.
In all cases, however, these inconsistencies were identified
by the defendants in order to make a broader point: that
the brothers subsequently changed their stories in order to
get favorable deals from the government. Throughout the
cross-examinations, the defendants repeatedly suggested that
the brothers coordinated their stories—and clarified previous
inconsistencies—because they believed that they would only
get “credit” if they could “point the finger at either John or Jeff
or both.” Put differently, the defendants accused the Romo
brothers of inconsistency only to support their claim that the
brothers fabricated their stories—a motive that fits squarely
within 801(d)(1)(B)(i), and not the alternative 801(d)(1)(B)
(ii).
[51] In the Advisory Committee's Note to the 2014
Amendment, the committee *175 explained that “[t]he
amendment does not change the traditional and well-accepted
limits on bringing prior consistent statements before the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

United States v. Portillo, 969 F.3d 144 (2020)

factfinder for credibility purposes.” Fed. R. Evid. 801
(Advisory Committee's Note to 2014 Amendment); see also

2018). The
Tome limitation predates Rule 801 and was
a well-established common law principle that was accepted

ii. See United States v. Davis, 896 F.3d 784, 789 (7th Cir.
2018). The government identifies no cases in which our court
or another court has admitted a prior consistent statement
under similar circumstances. There are only a handful of
circuit cases in which the admission of a prior consistent
statement under 801(d)(1)(B)(ii) has been affirmed, but all

by the drafters of the rule. See
Tome, 513 U.S. at 161–
62, 115 S.Ct. 696 (recounting history of rule). In order
to faithfully give effect to the drafters’ intentions, courts

involve distinct factual contexts. See, e.g., United States v.
Cox, 871 F.3d 479, 487 (6th Cir. 2017) (admitting statement
where declarant was repeatedly accused of “faulty memory”);

must interpret Rule 801 with this rule in mind.
Id. (“The
Notes disclose a purpose to adhere to the common law
in the application of evidentiary principles, absent express

United States v. J.A.S., Jr., 862 F.3d 543, 545 (6th Cir.
2017) (admitting statement after declarant's credibility was
attacked on “collateral grounds”). The government likewise
cites no cases where a court concluded that a declarant was
attacked on “another ground,” even though it was undisputed
that the declarant was primarily attacked on the basis of an
improper motivation. Cf. Purcell, ––– F.3d –––– – ––––, 2020
WL 4211555, at *27–28. In light of the clear limitation in

United States v. Magnan, 756 F. App'x 807, 818 (10th Cir.

provisions to the contrary.”). If the
Tome limitation is
mapped on to Rule 801(d)(1)(B)(ii), a litigant may not
introduce a prior consistent statement if that statement was
made at a time when the litigant allegedly had a motive
to fabricate—even if the litigant supplements his attack on
the witness's credibility by pointing to other flaws in the
declarant's testimony.
Here, the plain language of 801(d)(1)(B)(ii) precludes the
admission of the prior consistent statements under these
circumstances because the defendants did not attack the Romo
brothers on “another ground.” By permitting the admission
of a consistent statement when a witness is “attacked on
another ground” (emphasis added), the Rule necessarily
restricts the admissibility of a statement when the witness
is attacked on a ground specifically delineated in 801(d)(1)
(B)(i): an accusation that the witness “recently fabricated”
a story, or is “act[ing] from a recent improper influence
or motive.” See 801(d)(1)(B)(i). Here, it is impossible to
separate the defendants’ attack on the brothers’ motivations
from their charges of inconsistency, making it difficult to
hold that the brothers were attacked on “another ground.” See
Magnan, 756 F. App'x at 818–19; see also United States
v. Purcell, ––– F.3d ––––, –––– – ––––, 2020 WL 4211555,
at *27–28 (2d Cir. July 23, 2020) (affirming admission of
statements under Rule 801(d)(1)(B)(ii) where the declarant
was accused of making inconsistent statements and defense
counsel never suggested “that the accuracy of [declarant's]
trial testimony was marred by recent fabrication or a recently
created improper motive or influence”).
At least one circuit has noted that it is an open question
whether the
Tome rule applies to 801(d)(1)(B)(ii), though
that court ultimately declined to hold that the district court
had plainly erred in admitting the evidence under subsection

Tome and the defendants’ consistent attempts to argue that
the Romo brothers had a motivation to lie, we decline to hold
that *176 801(d)(1)(B)(ii) permits such an end-run around
the limitation in 801(d)(1)(B)(i). We therefore hold that the
Romo brothers’ statements were not admissible under 801(d)
(1)(B)(ii).
[52] In contrast to the Romo brothers’ statements, the
government identifies at least one portion of Portillo's cross
examination of Merla where Portillo questioned Merla's
memory of the events surrounding Robert Lara's killing.
Portillo's counsel stated that “[e]vents were fresher on
[Merla's] mind” closer to the murder, and suggested that this
was a basis for inconsistencies in his testimony about whether
Portillo gave the go-ahead to murder Lara. Portillo's attack
on Merla's memory was sufficient to justify the admission of
his prior consistent statement under Rule 801(d)(1)(B)(ii). See
Flores, 945 F.3d at 705 (admitting prior consistent statements
after a charge of faulty memory, even though the faulty
memory accusations “were brief and were not [defendants’]
main challenges” to the credibility of the witness). Because
Merla was attacked on a ground other than his alleged motive
to fabricate, the district court did not abuse its discretion in
admitting this statement.
[53]
[54]
[55]
[56] The government makes one final
argument for the admissibility of the statements, asserting that
all three statements were admissible under the common law
rule of completeness. That rule, which has been “partially
codified ... in Rule 106” of the Federal Rule of Evidence,
allows a party to introduce other portions of a written or

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

United States v. Portillo, 969 F.3d 144 (2020)

recorded statement when the opposing side introduced only a

involvement in the two murders, which they repeated

portion of that statement.
Beech Aircraft Corp. v. Rainey,
488 U.S. 153, 171–72, 109 S.Ct. 439, 102 L.Ed.2d 445
(1988). The rule ensures that all parts of such a statement

during trial.
Magnan, 756 F. App'x at 819;
Akins,
746 F.3d at 600. This stands in contrast to a situation

are “considered contemporaneously,”
id. at 172, 109 S.Ct.
439, and “guards against the danger that an out-of-context
statement may create such prejudice that it is impossible to
repair by a subsequent presentation of additional material,”
United States v. Burns, 162 F.3d 840, 853 (5th Cir. 1998)
(internal quotation marks and citation omitted). The rule
operates independently from Rule 801(d)(1)(B) and allows
the admission of such statements even when they are
otherwise barred by the hearsay rules. See
Mohr, 318 F.3d 613, 626 (4th Cir. 2003).

United States v.

The government cites pages from the record where the
defendants referred to specific portions of the statements
that were later introduced at trial. But the government
does not clearly explain why this questioning created
a misleading impression about the entirety of the prior
consistent statements. We have explained that the rule of
completeness justifies admission of a statement only where
it is “necessary to qualify, explain, or place into context the
portion already introduced.”
United States v. Branch, 91
F.3d 699, 728 (5th Cir. 1996) (citation omitted); see also
United States v. Sanjar, 876 F.3d 725, 739 (5th Cir. 2017)
(“The rule comes into play ... only when the additional inquiry
is needed to ‘explain, vary, or contradict’ the testimony
already given.” (quoting
United States v. Paquet, 484
F.2d 208, 212 (5th Cir. 1973)). The government has not
demonstrated that the statements admitted into evidence were
necessary to correct any misleading impressions created by
the defendants’ references to the prior statements. See United
States v. Altvater, 954 F.3d 45, 49–50 (1st Cir. 2020) (rejecting
a rule of completeness argument where the proponent failed
to meet his burden of showing that the full statement was
necessary to correct a misimpression). 3
*177 [57] We therefore hold that the district court abused
its discretion in admitting the Romo brothers’ prior consistent
statements. This conclusion does not end our analysis,
however. We must still affirm if the district court's error
was harmless. See, e.g.,
United States v. Jones, 664 F.3d
966, 974 (5th Cir. 2011). Here, the improperly admitted
prior statements duplicated the Romo brothers’ “lengthy,
specific, and detailed accounts” of Portillo's and Pike's

like
Tome, where the prior consistent statements were
considerably more detailed and persuasive than the testimony
introduced at trial—thus adding to their prejudicial impact.
Magnan, 756 F. App'x at 819. In addition, the government
introduced powerful circumstantial evidence to support
the defendants’ involvement in Benesh's murder, including
evidence about each defendant's role within the organization
and evidence about the aftermath of the murder and the
defendants’ reactions. See, e.g., United States v. Sanders,
952 F.3d 263, 273 (5th Cir. 2020) (“Criminal conspiracies
can be established on circumstantial evidence alone.”);
cf.
Michalic v. Cleveland Tankers, Inc., 364 U.S. 325,
330, 81 S.Ct. 6, 5 L.Ed.2d 20 (1960) (“Circumstantial
evidence is not only sufficient, but may also be more
certain, satisfying and persuasive than direct evidence.”).
This circumstantial evidence provided an additional basis
to convict the defendants, even without the Romo brothers’
testimony regarding the defendants’ direct involvement in
the murder. It is notable that the defendants do not point
to reliance by the government on these statements in its
principal or rebuttal closing arguments. Our own review of
the closing arguments confirms that the government did not
heavily rely upon the Romo brothers’ confessions, making
it difficult for us to conclude that the inadmissible evidence
“permeate[d] the record.”
United States v. Westmoreland,
841 F.2d 572, 579 (5th Cir. 1988). To the contrary, the prior
consistent statements were not themselves a crucial part of
the government's case against the defendants. See
United
States v. Whittington, 269 F. App'x 388, 408 (5th Cir.
2008) (holding error harmless where the improperly admitted
evidence “was of minimal assistance” to the government).
Given the totality of the evidence, we are unable to conclude
that “there is a reasonable probability that the improperly
admitted evidence contributed to the conviction.” Sumlin, 489
F.3d at 688. We therefore hold that the district court's error
was harmless, and we affirm.
iii. Criminal Convictions of Former Bandidos Leaders
The district court allowed several witnesses to testify about
the conviction of George Wegers, who served as President
of the Bandidos immediately before Pike. Wegers pleaded
guilty to a RICO indictment in 2005. The court found this

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

United States v. Portillo, 969 F.3d 144 (2020)

testimony relevant to the charges against both defendants
because Weger's conviction occurred “during the period when
the alleged *178 conspiracy took place.” However, the court
simultaneously reminded the jury that “the defendants here
are not responsible for Mr. Wegers's conduct and the fact that
he may have pled guilty is not to be considered by you as
evidence of the guilt of the defendants.”
When Pike testified at trial, he repeatedly denied any
knowledge of other Bandidos’ criminal activities and argued
that the Bandidos became a “family-oriented” club under his
leadership. As a result, the court allowed the government
to question Pike about his knowledge of other members’
criminal convictions. The court again cautioned the jury that
this testimony was not, “in any way, shape or form[,] ...
evidence against the defendants in this case.” The court
explained that the jury could only consider the evidence “as to
the state of mind of Mr. Pike when he joined and maintained
his membership in the Bandidos.” After the close of evidence,
the court reminded the jury that “[t]he defendants are not
on trial for any act, conduct, or offense not alleged in the
indictment.” Pike and Portillo argue that this evidence was
irrelevant and that the probative value of this evidence was
substantially outweighed by the risk of unfair prejudice.

[61] In the context of a conspiracy charge, however, evidence
about a defendant's co-conspirators’ actions is often highly
relevant. See, e.g., United States v. Ocampo-Vergara, 857
F.3d 303, 307–08 (5th Cir. 2017). “[T]he agreement, a
defendant's guilty knowledge and a defendant's participation
in the conspiracy all may be inferred from the development
and collation of circumstances,” including evidence about the
defendant's “presence and association with other members
of a conspiracy.” Id. (internal quotation marks and citations
omitted). As a result, we have held that evidence about an
associate's guilt is admissible as long as it has some tendency
to establish the elements of a conspiracy against the defendant
himself. See, e.g., *179 United States v. Chavful, 100 F.
App'x 226, 231 (5th Cir. 2004) (admitting gang letter where
it was “probative of [defendant's] association with other
members of the conspiracy”);
United States v. Rodriguez,
162 F.3d 135, 143 (1st Cir. 1998).

[62] Here, the challenged evidence was relevant to the
conspiracy charges against Portillo and Pike. Wegers
was convicted of a RICO conspiracy based on his
activities as the Bandidos President in 2005—the same
time that Pike assumed the role of National President.
The dates of the charged conspiracy in this case overlap
[58] [59] “Evidence is relevant if ... it has any tendency
with Wegers's conviction. As the government argues, the
to make a fact more or less probable ... and ... the fact is
timing of Wegers's racketeering conviction—which occurred
of consequence in determining the action.” Federal Rule of
when Pike was National Vice President—undermines the
Evidence 401. Rule 403 of the Federal Rules of Evidence
defendants’ argument that they were unaware that Bandidos
allows a court to “exclude relevant evidence if its probative
members were engaged in criminal activity. See
United
value is substantially outweighed by a danger of ... unfair
States
v.
Greenwood,
974
F.2d
1449,
1459
(5th
Cir.
1992)
prejudice.” “In reviewing Rule 403 findings, we give great
(dismissing defendants’ guilt by association argument where
deference to the court's informed judgment and will reverse
the evidence supported the conclusion that the defendant was
only after a clear showing of prejudicial abuse of discretion.”
aware that the operation “he wished to join was an on-going
United States v. Peden, 961 F.2d 517, 521 (5th Cir. 1992)
criminal enterprise”). It also casts doubt upon their claim
4
(internal quotation marks and citation omitted).
that the Bandidos was simply a family-friendly motorcycle
club, not connected to violence or criminal activities. The
[60] “[A] defendant's guilt may not be proven by showing
evidence of other Bandidos’ members convictions was also
that he associates with unsavory characters.’ ”
United
relevant to rebut Pike's defense, which rested on the argument
States v. Romo, 669 F.2d 285, 288 (5th Cir. 1982) (quoting
that he was unaware of criminal activity committed by
other Bandidos members. The Bandidos members whose
United States v. Singleterry, 646 F.2d 1014, 1018 (5th
criminal convictions were discussed at trial were involved
Cir. Unit A 1981)). As a result, we have explained that
in similar racketeering activity during the course of the
evidence about a third party's criminal conviction—absent
defendants’ involvement in the club, undermining Pike's
any evidence “connecting [that person] to [an] alleged
claims that the club was more “mainstream” during his
conspiracy”—is “irrelevant to any issue in th[e] case,” and
Presidency and that the club itself existed simply for innocent
is instead “a highly prejudicial attempt to taint defendant's
entertainment purposes. See, e.g., Ocampo-Vergara, 857 F.3d
character through ‘guilt by association.’ ”
United States v.
at 308 (explaining that no guilt by association problems
Labarbera, 581 F.2d 107, 109 (5th Cir. 1978).
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

United States v. Portillo, 969 F.3d 144 (2020)

arise if “the defendant's offense is connected to others’
conduct”); Chavful, 100 F. App'x at 231 (observing that letter
from non-defendant was relevant because it “served to rebut
[defendant's] attempt to distance himself from the gang and
the other members of the conspiracy”). Though evidence that
can only be used to establish guilt by association is “improper
and highly prejudicial,” evidence that is relevant on its own
terms is admissible if “reasonable inferences” regarding the
defendants’ guilt “could be drawn ... by a reasonable juror.”
United States v. Parada-Talamantes, 32 F.3d 168, 169–70
(5th Cir. 1994).
[63]
[64] The district court likewise did not abuse its
discretion in declining to exclude this evidence under Rule
403. “Relevant evidence is inherently prejudicial; but it is
only unfair prejudice, substantially outweighing probative
value, which permits exclusion of relevant matter under Rule
403.”

United States v. Pace, 10 F.3d 1106, 1115–16 (5th

Cir. 1993) (quoting
United States v. McRae, 593 F.2d
700, 707 (5th Cir. 1979)). Here, the district court's repeated
limiting instructions reminded jurors that evidence about nondefendants’ criminal activity could not be used to prove
the defendants’ guilt. We have held that similar cautionary
instructions can help to reduce the possibility of unfair
prejudice. See, e.g., United States v. Sanders, 343 F.3d 511,
518 (5th Cir. 2003) (“Under the Rule 403 standard, when the
court issues a limiting instruction, it minimizes the danger of
undue prejudice.”). The court gave “extensive and immediate
limiting instructions” and reiterated those instructions after
the close of evidence. United States v. Juarez, 866 F.3d 622,
628–29 (5th Cir. 2017) (citation omitted). These instructions
reminded the jurors that evidence about other Bandidos
members did not prove the defendants’ guilt and could instead
only be *180 used for “limited purposes.” United States v.
Guerra, 402 F. App'x 973, 976 (5th Cir. 2010). We therefore
hold that the district court did not abuse its discretion in
admitting this evidence.
iv. Goodfella's Comment
During his testimony, Agent Schuster explained that his
knowledge of the Bandidos was based on interviews
with “patched-in” members and other “associate[s]” of the
group, including “hang-arounds or support club members.”
On cross-examination, the defendants used this testimony
to suggest that Schuster had only spoken to a handful
of Bandidos members, rendering his opinions unreliable
and unsupported. The government objected, arguing that

the defendants’ questions misstated Schuster's testimony
regarding the basis for his knowledge.
The district court agreed and sustained the government's
objection. The court explained that Schuster's testimony
revealed that he had “two insider informants,” but that he
also spoke with a “bunch of hangers-on and other people who
were ... not in the club itself, but nonetheless were involved in
the club.” To help explain the role of non-member “hangerson,” the court analogized to the movie Goodfellas:

Now, if I can use an example that
maybe the jury might be familiar with
and I'm not for a moment suggesting
that the Bandidos are in any way,
shape or form like this organization,
but we all remember maybe the movie
Goodfellas. Remember that movie? ...
[T]he main character in Goodfellas
was Irish and there was another
guy named Burke who was also
Irish. Those people were not actually
members of the mafia because you
cannot become a member of the mafia
unless you are Italian and you can
trace your Italian lineage. They were
Irish, but they worked with, for and
were involved [ ] deeply in mafia
activities, but they were not actually
members of the mafia. So those people
if we were trying that case wouldn't
be members of the mafia, but they
would be people who were associated
with them, okay. ... I used that example
because it's a very easy one to draw, not
because I'm suggesting that the people
who were involved with the Bandidos
were like the two people who were
involved in the movie.

Neither of the defendants objected to the district court's
explanation.
[65] Portillo argues that the district court's comment was
unfairly prejudicial. Because he failed to object to this
comment during trial, we review his challenge for plain error

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

United States v. Portillo, 969 F.3d 144 (2020)

only. United States v. Williams, 620 F.3d 483, 488–89 (5th
Cir. 2010).

insignificance of this one stray comment demonstrates that
any error “did not deprive the defendants of their rights to a
fair trial.”

[66] [67] [68] “A district judge in a jury trial is ‘governor
of the trial for purposes of assuring its proper conduct and
of determining questions of law.’ ”
Johnson v. Helmerich
& Payne, Inc., 892 F.2d 422, 425 (5th Cir. 1990) (quoting
Quercia v. United States, 289 U.S. 466, 469, 53 S.Ct. 698,
77 L.Ed. 1321 (1933)). As a result, judges have both “the right
and the duty to comment on the evidence to ensure a fair trial.”
Id. Because judges have “enormous influence on the jury,”
however, they “must act with a corresponding responsibility”
when making comments or questioning witnesses.
United
States v. Williams, 809 F.2d 1072, 1086 (5th Cir. 1987); see
also United States v. Middlebrooks, 618 F.2d 273, 277 (5th
Cir. 1980) (“It is well known that juries are highly sensitive
to every utterance by the trial judge.” (cleaned up)).
We do not agree that the district court committed plain error
when it made the Goodfellas statement. This stray statement
*181 was unnecessary. However, the court was careful to
provide the jury with limiting instructions. The district judge
explained that he was not suggesting that there was any
resemblance between the Bandidos and the mafia, reducing
the risk that the jury would have interpreted the judge as
demonstrating a bias towards the government. The court was
also careful to explain at the close of evidence that the jury
should “disregard anything [the court] may have said during
the trial in arriving at your own verdict.” We have held that
the prejudicial impact of a district court's comments may
be “adequately cured by the trial court's instructions to the
jury ... to ignore his comments and to be the sole judge of
the facts.” Johnson, 892 F.2d at 426. In United States v.
Bermea, 30 F.3d 1539, 1571–72 (5th Cir. 1994), we approved
nearly identical curative instructions, holding that “a curative
instruction such as this one can operate against a finding of ...
error.”
Even if the statement was clear and obvious error, Portillo
fails to explain how it affected his substantial rights. When
determining whether a prejudicial court comment impacted
the jury's verdict, it is necessary to review those actions in the
context of “the entire trial record.”
Rodriguez v. Riddell
Sports, Inc., 242 F.3d 567, 579 (5th Cir. 2001) (citation
omitted). Here, the court's comment takes up just a page
of the transcript in a three-month-long trial. The relative

Williams, 809 F.2d at 1090.

v. Access to Psychiatric Records
Magenta Winans testified on behalf of the government about
Robert Lara's murder. On direct examination, Winans also
testified about her own drug use and her mental health
history. She explained that she had been diagnosed with
“PTSD, bipolar disorder two, anxiety, depression, ADHD,
and dyslexia,” and she testified that she “lost a lot of ...
memory” and “really forgot all about everything” after her
son died.
During cross-examination, Winans was asked to provide more
detail about her psychiatric treatment and medications. She
told the jury that she was on several medications that help
“keep [her] calm” and “help [her] so [she] can sleep and ...
keep the rage off.” At one point, she was taking as many
as eight medications a day. She sees a doctor once or twice
a month and had been seeing the same doctor since 2014.
When the court asked if the medications ever “affect[ed] [her]
ability to think or reason,” she replied affirmatively, stating
that they impact her thinking abilities and that she “couldn't
really drive” while she was on the medications.
Before Winans was subjected to cross examination, Portillo
moved for production of her psychiatric, psychological,
and counseling records. With support of counsel, Winans
opposed the disclosure of the material. The court ordered
the records produced to a magistrate judge for in camera
review. After reviewing the records, the magistrate judge held
that the records were protected by the psychotherapist-patient
privilege and denied Portillo's motion.
[69] [70] “We review factual findings underlying a ruling
of psychotherapist-patient privilege for clear error, and we
review application of the legal principles de novo.” United
States v. Murra, 879 F.3d 669, 680 (5th Cir. 2018) (citing
United States v. Auster, 517 F.3d 312, 315 (5th Cir. 2008)).
“A district court's factual finding is clearly erroneous ‘if,
on the entire evidence, we are left with a definite and firm
conviction that a mistake has been *182 committed.’ ” Id.
(quoting United States v. Brown, 650 F.3d 581, 588 (5th Cir.
2011)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

32

United States v. Portillo, 969 F.3d 144 (2020)

[71] The

psychotherapist-patient

privilege

was

first

identified by the Supreme Court in
Jaffee v. Redmond,
518 U.S. 1, 116 S.Ct. 1923, 135 L.Ed.2d 337 (1996).
In that case, the Court held that the privilege “promotes
sufficiently important interests to outweigh the need for
probative evidence.”
Id. at 9–10, 116 S.Ct. 1923 (cleaned
up). To obtain the benefits of the privilege, the communication
must be confidential, between a licensed psychotherapist
and her patient, and conducted “in the course of diagnosis
or treatment.”
Id. at 15, 116 S.Ct. 1923. Portillo makes
two arguments to challenge the court's conclusion that the
documents were privileged: (1) Winans waived the privilege
when she disclosed her “mental health treatment, diagnoses
and medications during her testimony,” and (2) as a criminal
defendant, his constitutional rights to confrontation and due
process override the privilege. Neither of these arguments
demonstrates that the court erred when it denied Portillo's
motion to access the records.

facts that are not subject to the privilege. See also id. (“[The
defendant] cannot be permitted ... to review confidential
communications and then advise the court of the harm she
suffered as a result of the withholding.”).
[74]
[75] Similarly, we do not believe that Portillo's
constitutional rights were violated by the court's failure to
disclose these records. With respect to Portillo's claim under
the Confrontation Clause, there is no basis to conclude that
Portillo's ability to cross-examine Winans was hampered by
the denial of his motion. Portillo's counsel was permitted to
ask Winans detailed questions about her psychiatric treatment
and medication regimen on cross-examination, distinguishing
this case from

Davis v. Alaska, 415 U.S. 308, 94 S.Ct.

1105, 39 L.Ed.2d 347 (1974); see also
Pennsylvania
v. Ritchie, 480 U.S. 39, 52–53, 107 S.Ct. 989, 94 L.Ed.2d
40 (1987) (plurality) (explaining that the Confrontation
Clause is not “a constitutionally *183 compelled rule of
pretrial discovery,” but instead merely ensures the right
of a defendant to question an adverse witness). Likewise,
[72] [73] First, Winans did not waive the privilege simply
Portillo's Brady claim fails because he has not demonstrated
by testifying about her psychiatric conditions and medication
that the “prosecution team had access” to Winans's records—
history. The privilege protects confidential communications
between a psychotherapist and a patient. Winans testified
a necessary prerequisite for the claim to succeed. Summers
about the facts of her medical diagnoses and medication
v. Dretke, 431 F.3d 861, 874 (5th Cir. 2005).
history, but she did not provide any details about the nature
of her conversations with her doctor. In Murra, we explained
We therefore hold that the district court did not abuse its
that a witness does not waive the privilege merely by
discretion in denying Portillo access to Winans's psychiatric
disclosing “facts” to “third parties and at trial.” 879 F.3d at
records.
680. Winans had a “reasonable expectation of confidentiality”
in her confidential communications with her psychotherapist,
vi. Sonny Barger's Prior Convictions
and her disclosure of the fact of that relationship—as well as
[76]
[77] When Barger testified on behalf of the defense,
the nature of her medication regimen—does not demonstrate
he explained that the Hell's Angels and the Bandidos
that “any portion of those confidential communications was
had peacefully co-existed for decades. He denied that the
revealed ... to any third party.” Id. at 681 (citation omitted).
clubs were enemies, and he claimed that the Hell's Angels
was simply a “fun-loving motorcycle club,” not a group
Our own independent review of Winans's psychiatric records
predisposed to violence. Over Pike's objections, the district
confirms that Winans did not reveal confidential information
court allowed the prosecution to impeach Barger with two
at trial. Winans's records detail confidential discussions with
prior convictions: (1) felony drug trafficking in 1973, and (2)
her doctor about her treatment and condition. Even though
conspiracy to transport and receive explosives with the intent
Winans's current medication regimen falls outside of the
to kill and damage buildings in 1989. The defendants argue
privilege, her forthcoming testimony about these details
that the district court abused its discretion when it admitted
demonstrates that there was “no relevant underlying fact
discussed in [her] psychotherapy sessions that was not fully
explored during [her] testimony and cross-examination at
trial.” Id. at 680–81. She did not “attempt[ ] to hide behind
the privilege to avoid giving testimony about those facts,” id.
at 681, and there was therefore no basis to conclude that she
waived the privilege or that disclosure was necessary to reveal

these convictions. 5

[78] “Extrinsic evidence, which includes prior convictions,
is admissible under the general standards of Rules 402
and 403 to contradict specific testimony, as long as the
evidence is relevant and its probative value is not substantially

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

33

United States v. Portillo, 969 F.3d 144 (2020)

outweighed by the danger of unfair prejudice.” United States
v. Lopez, 979 F.2d 1024, 1034 (5th Cir. 1992); see also
United States v. Moon, 802 F.3d 135, 146 (1st Cir. 2015)
(“Although [the defendant] invokes Rule 609 in asserting that
the evidence surrounding his 2001 robbery conviction was
improperly admitted, that rule is beside the point where, as
here, the challenged evidence was offered to contradict the
specific testimony.”).
In several cases, we have affirmed the admissibility of a prior
conviction where the witness's testimony either explicitly
denied the conviction or created a misleading impression that
could only be corrected through admission of the conviction.
In
United States v. Carter, 953 F.2d 1449 (5th Cir. 1992),
we held that a prior misdemeanor conviction was admissible
to contradict the witness's statement that he was continuously
employed during the period of time when he was actually
incarcerated.
Id. at 1456, 1458. Likewise, in Lopez, we
affirmed the admission of evidence about a prior marijuana
conviction when it was used to contradict the witness's
testimony that he “never had seen and did not recognize” the
drug. 979 F.2d at 1034.
The government argues that Barger's convictions were
admissible to contradict Barger's testimony that the Hell's
Angels was simply a “fun-loving motorcycle club.” Barger's
1989 conspiracy conviction was related to a “plot to kill
members of the Outlaw motorcycle club in Louisville,
Kentucky,” suggesting that the Hell's Angels participated
in violent retaliatory attacks—not simply “fun-loving”
entertainment. Likewise, Barger's drug conviction cast doubt
upon his innocent characterization of the Hell's Angels,
suggesting that the club *184 and its members were involved
in drug trafficking.
[79] Even if the contradictions between Barger's testimony
and his prior convictions are not as direct as the contradictions
in Lopez and
Carter, any error in admitting these
convictions was harmless. Barger's testimony was relatively
brief, and it did little to challenge the elements of the charges
against the defendants. The government presented substantial
evidence to dispute Barger's claim about the relationship
between the Hell's Angels and the Bandidos and to establish
the defendants’ responsibility for Benesh's murder. See
United States v. Simmons, 374 F.3d 313, 321 (5th Cir. 2004)
(holding error harmless where there was “overwhelming
direct and circumstantial evidence” of the defendant's guilt).
Because Barger's testimony played such a minor role in the

trial as a whole, the defendants are unable to show that
“there is a reasonable probability that the improperly admitted
evidence contributed to the[ir] conviction[s].” Sumlin, 489
F.3d at 688.
vii. Portillo's Prior Statement
During Pike's case-in-chief, he moved to admit a letter that
Portillo had written him ten months after the two defendants
were indicted. In the letter, Portillo wrote that he was “truly
sorry about this mess.” He told Pike “[t]his is bullshit,” and
“I plan to fight this to the end + take what I got coming.” He
also told Pike “You had nothing to do with it. You or I cannot
control what people do 24-7. I hope to see you soon + not in
a courtroom.”
The district court held that the letter was inadmissible. First,
it was inadmissible under Rule 806 to impeach Portillo's
recorded conversations because Portillo had never made any
statements implicating Pike that would have been inconsistent
with the letter. The court also found that Pike was trying
to introduce the letter as substantive evidence, rather than
impeachment evidence. And because Portillo's statement that
Pike “had nothing to do with it” was vague, the court found
the letter “nebulous at best.” The court also held that the
letter should be excluded under Rule 403 because it had “very
little probative value given its obliqueness” but could “be
extremely damaging to Mr. Portillo if the Government is then
able to argue that Mr. Portillo ... has basically admitted the
entire case.” 6
Federal Rule of Evidence 806 allows a party to attack
the credibility of a declarant whose hearsay statement has
been admitted into evidence. Under the rule, the party can
impeach the hearsay declarant “by any evidence that would
be admissible for those purposes if the declarant had testified
as a witness.” Fed. R. Evid. 806. “The court may admit
evidence of the declarant's inconsistent statement or conduct,
regardless of when it occurred or whether the declarant had
an opportunity to explain or deny it.” Id.; see also
United
States v. Moody, 903 F.2d 321, 328 (5th Cir. 1990); United
States v. Graham, 858 F.2d 986, 990 (5th Cir. 1988).
[80]
[81] In order to determine whether a statement is
admissible under Rule 806, the court must “first decide
whether the proffered statement is actually inconsistent with
the hearsay statement already admitted.” Graham, 858 F.2d
at 990; see also

United States v. Hale, 422 U.S. 171, 176,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

34

United States v. Portillo, 969 F.3d 144 (2020)

95 S.Ct. 2133, 45 L.Ed.2d 99 (1975) (“As a preliminary
matter ... the court must be persuaded that the statements are
indeed inconsistent.”). As the Supreme Court stated *185
in
Hale, “the question whether evidence is sufficiently
inconsistent to be sent to the jury on the issue of credibility
is ordinarily in the discretion of the trial court.”
at 180 n.7, 95 S.Ct. 2133.

422 U.S.

[82] Pike argues that Portillo's letter was admissible as
impeachment evidence under Rule 806 because it was
inconsistent with statements made by Portillo in a set of
recorded phone conversations introduced at trial. Pike points
to a number of comments made by Portillo during the course
of these recordings: (1) “I was talking to the general manager,
he said play ball. Said batter up motherfucker;” (2) “I asked
the guy in Houston to turn his back from what I'm gonna
do;” (3) “His word is final;” and (4) “I don't make no
majors without him knowing about it.” Pike argues that these
statements suggested Pike was involved in specific decisions
made by Portillo and by the Bandidos; by contrast, he argues
that Portillo's letter, which stated that Pike “had nothing to
do with it,” was inconsistent with these comments because it
demonstrated Pike's lack of knowledge about the Bandidos’
crimes.
The district court did not abuse its discretion when it
held that Portillo's letter was not inconsistent with any of
these statements. Portillo's recorded conversations suggest
that Pike, as the President of the Bandidos, was aware of
some of the Bandidos’ criminal activities. But these specific
comments are not necessarily inconsistent with the vague
and “nebulous” comments in Portillo's jailhouse letter. As
the district court found, it is unclear from the letter what
“it” meant. Given this uncertainty, it is not inconsistent
for Portillo to have acknowledged Pike's knowledge about
Portillo's major decisions, while also stating that Pike was
not affiliated with other specific and discrete crimes. Even
if it might have been within the district court's discretion
to find that the statements here were inconsistent, that does
not necessarily mean that the court's contrary conclusion was
erroneous. See, e.g.,
Gonzalez v. Fresenius Med. Care
N.A., 689 F.3d 470, 480 (5th Cir. 2012).
[83] For similar reasons, the district court did not abuse its
discretion when it held, in the alternative, that the evidence
was inadmissible under Rule 403. Given the inconclusive
nature of the inconsistency, the probative value of the letter
was minimal, especially when set against the high risk of

prejudice. See United States v. Lewis, 796 F.3d 543, 545 (5th
Cir. 2015) (“A district court's ruling regarding Rule 403 is
reviewed with an especially high level of deference to the
district court, with reversal called for only rarely and only
when there has been a clear abuse of discretion.” (cleaned
up)). As a result, we affirm the district court's decision to deny
admission of Portillo's letter.
E. Duplicative Special Assessments
[84] The district court imposed a special assessment of $100
on each of Portillo's thirteen crimes of conviction. Portillo
argues that the district court's imposition of duplicative
special assessments violates the Double Jeopardy Clause.
Because he did not object to his sentence on this basis before
the district court, we review his challenge for plain error only.
See United States v. Danhach, 815 F.3d 228, 238 (5th Cir.
2016).
[85] The imposition of multiple special assessments on
concurrent counts of conviction can violate the constitutional
prohibition against imposing “multiple punishments for the
same act.”
United States v. Kimbrough, 69 F.3d 723,
729 (5th Cir. 1995) (“[F]or double jeopardy purposes,
sentences are not truly concurrent where a mandatory special
assessment is separately imposed on each conviction.”).
However, *186
Kimbrough makes clear that separate
special assessments violate the double jeopardy clause only if
the assessments were imposed for the same criminal act. See,
e.g., Whalen v. United States, 445 U.S. 684, 688, 100 S.Ct.
1432, 63 L.Ed.2d 715 (1980). There is no double jeopardy
problem if the special assessments were imposed for “distinct
criminal acts.” Danhach, 815 F.3d at 239.
Portillo was sentenced to concurrent sentences on counts
1, 4, 5, 6, 7, 10, 11, 12, and 13. Those counts charged
him with: a racketeering conspiracy, conspiracy to commit
murder in aid of racketeering, conspiracy to commit an assault
with a deadly weapon in aid of racketeering, assault with
a dangerous weapon in aid of racketeering in Palo Pinto,
assault with a dangerous weapon in aid of racketeering in Port
Aransas, conspiracy to distribute and possession with intent
to distribute a controlled substance, possession with intent to
distribute cocaine, conspiracy to interfere with commerce by
threats or violence, and possession of a firearm as a felon.
These crimes all involve distinct offenses and required the
jury to find distinct elements to convict. Portillo fails to argue
how those offenses “should be considered to constitute the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

35

United States v. Portillo, 969 F.3d 144 (2020)

same offense.” Lopez, 426 F. App'x at 264. He has therefore
failed to establish plain error, and we affirm. 7

For the foregoing reasons, the judgment of the district court
is AFFIRMED.
All Citations

III. Conclusion

969 F.3d 144

Footnotes
1

2

3

4

5

6
7

Pike primarily argues that the government did not establish that he was personally involved in Benesh's
murder. However, he also makes a cursory argument that the evidence did not prove that he was involved
in a racketeering enterprise, and he argues in his challenge to Count Twelve that the Bandidos’ activities did
not affect interstate commerce. As we explain below, we find the evidence sufficient to establish these other
elements of the charges against Pike.
In arguing that Johnny's confession was admissible, the government explained that Johnny's credibility had
been “attacked on a number of grounds,” but did not specifically cite Rule 801(d)(1)(B)(ii). The court then
discussed the history of the 2014 amendment, but did not clearly indicate the basis for its admissibility holding.
Later, when discussing the admissibility of Robbie's prior statement, the government explained that it was
offering the statement as a “prior consistent statement” after Robbie was “attacked thoroughly on crossexamination,” but did not explain the specific portion of the rule that gave rise to its argument.
The government makes the related argument that the prior consistent statements were admissible in order
to “contextualize[ ], clarif[y], or amplif[y] the meaning of” the inconsistent testimony used by the defendants
in their cross-examinations. See United States v. Cotton, 823 F.3d 430, 437 (8th Cir. 2016). Even if this
argument justified the admission of some portion of the statements, the government does not explain why this
rule justified the admission of the entirety of the brothers’ confessions. However, the defendants’ affirmative
use of portions of the brothers’ confessions and the government's avoidance of using the confessions in
its direct examinations of the brothers collectively add to our conclusion that the district court's error was
harmless.
The government argues that Portillo did not contemporaneously object to all of the challenged testimony,
and therefore his challenge should be reviewed for plain error only. In
United States v. Love, 472
F.2d 490, 496 (5th Cir. 1973), however, we held that a defendant's failure to object is “excused” if his codefendant objects, since an additional “motion or objection would have been a useless formality.” We review
both defendants’ Rule 403 challenge for an abuse of discretion.
Pike preserved this error when he objected during trial. Though Portillo did not discuss this issue in his brief,
he adopted Pike's argument in his own brief. Federal Rule of Appellate Procedure 28(i) permits this practice
as long as the issue does not raise “fact-specific challenges to [a defendant's] own conviction or sentence.”
United States v. Alix, 86 F.3d 429, 434 n.2 (5th Cir. 1996). The defendants’ challenge to the admission of
Barger's convictions is not fact-specific or individual to either defendant.
For the purposes of reaching a decision, the court assumed that Pike would be able to establish that the
letter was in fact written and signed by Portillo.
The defendants also argue that the cumulative error doctrine requires reversal of their convictions. Though
we agree that the district court's admission of the Romo brothers’ prior consistent statements was erroneous,
this single harmless error does not require reversal. See United States v. Ceballos, 789 F.3d 607, 621 (5th Cir.
2015) (holding that reversal is required only when otherwise harmless “errors so fatally infected the trial that
they violated the trial's fundamental fairness” (cleaned up));

United States v. Delgado, 672 F.3d at 343–44.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

36

United States v. Portillo, 969 F.3d 144 (2020)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

37

